<html>
<title> - FIELD HEARING ON 2007 FARM BILL</title>
<body><pre>[Senate Hearing 109-821]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-821

                    FIELD HEARING ON 2007 FARM BILL

=======================================================================

                                HEARING

                               before the

    SUBCOMMITTEE ON FORESTRY, CONSERVATION, AND RURAL REVITALIZATION

                                 of the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION


                               __________

                            AUGUST 11, 2006

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry


  Available via the World Wide Web: http://www.agriculture.senate.gov



                                ------


                    U.S. GOVERNMENT PRINTING OFFICE

30-127 PDF                  WASHINGTON : 2007
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001









           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                   SAXBY CHAMBLISS, Georgia, Chairman

RICHARD G. LUGAR, Indiana            TOM HARKIN, Iowa
THAD COCHRAN, Mississippi            PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            KENT CONRAD, North Dakota
PAT ROBERTS, Kansas                  MAX BAUCUS, Montana
JAMES M. TALENT, Missouri            BLANCHE L. LINCOLN, Arkansas
CRAIG THOMAS, Wyoming                DEBBIE A. STABENOW, Michigan
RICK SANTORUM, Pennsylvania          E. BENJAMIN NELSON, Nebraska
NORM COLEMAN, Minnesota              MARK DAYTON, Minnesota
MICHEAL D. CRAPO, Idaho              KEN SALAZAR, Colorado
CHARLES E. GRASSLEY, Iowa

            Martha Scott Poindexter, Majority Staff Director
                David L. Johnson, Majority Chief Counsel
              Vernie Hubert, Majority Deputy Chief Counsel
                      Robert E. Sturm, Chief Clerk
                Mark Halverson, Minority Staff Director

                                  (ii)




















                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

Field Hearing on 2007 Farm Bill..................................     1

                              ----------                              

                        Friday, August 11, 2006
                    STATEMENTS PRESENTED BY SENATORS

Crapo, Hon. Mike, a U.S. Senator from Idaho......................     1
                              ----------                              

                               WITNESSES
                                Panel I

Dillin, Tim, Idaho Grain Producers of Idaho, Porthill, Idaho.....     7
Esplin, Keith, Potato Growers of Idaho, Blackfoot, Idaho.........    13
Evans, Jim, USA Dry Pea and Lentil Council, Idaho Dry Pea and 
  Lentil Commission, Genesee, Idaho..............................     8
Vanderwoude, John, United Dairymen of Idaho, Nampa, Idaho, 
  testifying on behalf of Idaho Dairymen's Association...........    10

                                Panel II

Hawley, Kyle, Idaho Association of Soil Conservation Districts, 
  Moscow, Idaho..................................................    23
Knight, Lloyd, Idaho Cattle Association, Roberts, Idaho..........    25
Mansfield, Terry, Idaho Department of Fish and Game, on behalf of 
  the Association of Fish and Wildlife Agencies, Boise, Idaho....    28
Miles, Rebecca, Nez Perce Tribe, Lapwai, Idaho...................     3
Noh, Laird, The Nature Conservancy of Idaho, Kimberly, Idaho.....    27

                               Panel III

Bohach, Gregory, College of Agriculture and Life Sciences, 
  University of Idaho, Moscow, Idaho.............................    40
Frei, Christine, Clearwater Economic Development Association, 
  Lewiston, Idaho................................................    44
Roach, Lorraine, Idaho Rural Partnership, Grangeville, Idaho.....    42
Simon, Roger, The Idaho Food Bank, Boise, Idaho..................    46
                              ----------                              

                                APPENDIX

Prepared Statements:
    Crapo, Hon. Mike.............................................    58
    Bohach, Gregory..............................................    61
    Dillin, Tim..................................................    70
    Esplin, Keith................................................    74
    Evans, Jim...................................................    78
    Frei, Christine..............................................    82
    Hawley, Kyle.................................................    86
    Knight, Lloyd................................................    92
    Mansfield, Terry.............................................    99
    Miles, Rebecca...............................................   104
    Noh, Laird (with attachments)................................   106
    Roach, Lorraine..............................................   124
    Simon, Roger.................................................   126
    Vanderwoude, John............................................   130
Document(s) Submitted for the Record:
Idaho Rural Partnership, prepared statement......................   136
Pacific Northwest Direct Seed Association, prepared statement....   137
















 
                    FIELD HEARING ON 2007 FARM BILL

                              ----------                              


                            AUGUST 11, 2006

                               U.S. Senate,
  Subcommittee on Forestry, Conservation and Rural 
                                    Revitalization,
         Committee on Agriculture, Nutrition, and Forestry,
                                                         Moscow, ID
    The subcommittee met, pursuant to notice, at 9 a.m. at the 
University of Idaho, Hon. Mike Crapo, chairman of the 
subcommittee, presiding.
    Present: Senator Crapo.

 OPENING STATEMENT OF SENATOR CRAPO, A U.S. SENATOR FROM IDAHO

    Senator Crapo. Before I get into my opening statement, let 
me gavel this hearing open. This is a hearing, a formal hearing 
of the Senate Subcommittee on Forestry, Conservation and Rural 
Revitalization relating to the Federal farm policy.
    Idaho is very fortunate. Not every state is going to be 
able to have a hearing. In fact, I believe most states are not 
going to be able to have hearings, and we are fortunate to be 
able to be one of the states that is going to be able to have a 
hearing in terms of providing input to the next Farm Bill.
    I want to thank all the witnesses for the time and effort 
that they have put in to preparing their testimony and 
traveling here to participate in today's hearing.
    As Congress prepares to write the next Farm Bill, there is 
really nothing more important than getting input from farmers 
and ranchers in rural communities and others who are most 
affected by the Federal farm policy.
    Hearings such as this, which is the eighth Senate 
Agricultural Committee field hearing held across the nation, 
and the 11 field hearings that are being held by the House 
Agriculture Committee are essential in that process.
    The world trade negotiations increased energy and other 
farm input costs and the far different Federal budget situation 
than the projected budget surplus that we had when the 2002 
Farm Bill was written add significant changes to crafting the 
next Farm Bill.
    However, it remains clear that producers must have a proper 
safety net, broader foreign market access and assistance with 
meeting the increased demands of our natural resources.
    Through strong leadership the Senate Agriculture Committee, 
Chairman Saxby Chambliss, we are going to be working to write a 
Farm Bill that meets these challenges while enabling success 
for U.S. agriculture.
    The bottom line is that we need to ensure the Federal farm 
policy addresses the needs and complexes of agriculture, while 
continuing to enable farmers and ranchers to provide a safe and 
abundant food supply. Also helping them strengthen our rural 
communities, our businesses and supporting the stewardship of 
our rural communities.
    This is not a small task. With more than 25,000 farmers and 
ranchers in Idaho producing more than 140 commodities, Idaho 
has an important voice to lend in writing the next Farm Bill.
    Today we are going to hear from witnesses representing 
various Idaho agriculture sectors, and we are also going to 
hear testimony from conservation, rural development and 
nutrition groups and the Nez Perce Tribe.
    There is ample opportunity beyond today to provide input 
for the next Farm Bill as well. The record for this hearing is 
going to remain open for five business days, and formal 
comments can be submitted during that time. Or anyone who's 
interested can submit informal views through the Senate 
Agriculture Committee website or through my own website, or by 
simply contacting me or my staff.
    I look forward to our discussion today and to valuable 
input that we are going to receive from Idahoans as we craft 
this next bill.
    Now, as we move forward with the witnesses, I want to 
remind all of the witnesses that as you were invited, the 
letter told you to prepare your testimony to last 5 minutes. 
Your written statements and testimony will be included as a 
part of the record. But I ask you to pay very close attention 
to the 5 minute limitation on your oral presentation, because 
we want to get engaged in some give and take on the questions 
and answers, and we do have a lot of witnesses to testify.
    And if you are like me, your 5 minutes is going to be done 
before you are. I never seem to get everything I want said, 
said in the time limits that I have when I'm giving a speech or 
make a presentation.
    So, what I would encourage you to do, Andree Duvarney is 
sitting right over here, she has some little time cards to help 
you remember where your time is. Andree, what do your cards 
say?
    Ms. Duvarney. And I have 2 minutes warning, a 1-minute 
warning, and then a time up.
    Senator Crapo. OK. And I encourage you as the time is up, 
to please just kind of wrap up whatever thought you are on at 
that point.
    Understand that you will have an opportunity to make the 
rest of your points or to present other information in a 
question and answer period or to supplement the record, but we 
do want to have you--we do want to try to keep everybody on 
time so that we can get everybody through in terms of their 
testimony, and have an opportunity for dialog.
    So, I would encourage you to do that. And if you go too far 
over, I will likely rap the gavel here to remind you to wrap up 
so that we can keep ourselves on pace. I hate to do that and I 
hate to run such a tight ship, but we have learned that we have 
to do that, or we won't get everybody's testimony concluded and 
have the opportunity for some give and take and questions and 
answers.
    Now, I also want to announce one other change. As you may 
have noticed--if you picked up a schedule, we had originally 
scheduled three panels to take place. I note, though, that we 
have Ms. Rebecca Miles here with us, who is the Chairman of the 
Nez Perce Tribe, and I have asked Rebecca to speak first in the 
first panel.
    So what we will do is proceed with the panels as they have 
been listed on the schedule, with the exception that we will 
have Rebecca speak first and represent the interests of the Nez 
Perce Tribe.
    And, Rebecca, you are free to proceed.

STATEMENT OF REBECCA MILES, CHAIRMAN, NEZ PERCE TRIBE, LAPWAI, 
                             IDAHO

    Ms. Miles. Thank you, Senator Crapo. Good morning. Taac 
Maywee. I appreciate the time to be moved ahead.
    For the record, my name is Rebecca Miles, and I currently 
serve as the Chairman of the Nez Perce Tribal Executive 
Committee, and I would like to present the Tribe's testimony in 
support of the reauthorization of the Farm Bill.
    I would like to thank the Senator for this important 
opportunity to work toward a unified vision for the Nez Perce 
Tribe and the U.S. Forest Service.
    In May of 2005 the Intertribal Timber Council, of which the 
Nez Perce are a proud member of, assisted in strengthening and 
crafting a way for tribes and the U.S. Forest Service to work 
toward a government to government relationship that respected 
each Tribe's unique treaty with the United States.
    The result was draft legislation developed by the ITC 
referred to as the Tribal Forest Service Cooperative Relations 
Act. The draft legislation authorizes the Forest Service 
assistance for tribal government, similar to the way the U.S. 
Forest Service provides assistance to state government.
    In addition to addressing this issue of parity among the 
tribes and the state, I would also strongly urge the 
reauthorization specifically for tribal access to Forest 
Service lands for certain cultural and traditional purposes.
    There are seven sections that assist in achieving that 
endeavor, and are as follows:
    Section 101 would allow tribal governments to participate 
directly in the conservation easements provided in the Forest 
Legacy Program.
    Section 102 would authorize assistance to tribal 
governments for tribal consultation and coordination with the 
Forest Service, conservation education and awareness 
activities, and technical assistance for forest resource 
planning, management and conservation.
    Section 202 would authorize reburial of tribal remains on 
National Forest Service lands.
    Section 203 would authorize Forest Service provision of 
forest products from National Forest Service lands to tribes, 
subject to a Forest Service-tribal agreement.
    Section 204 would authorize temporary closure of the 
National Forest Service land for tribal traditional cultural 
and customary purposes.
    Section 205 would prohibit the Secretary of Agriculture 
from disclosing to the public any confidential information 
learned from an Indian tribe or a member of an Indian tribe 
when the tribe or member requests that confidentiality be 
preserved.
    Section 206 provides severability and a savings language 
for the trust responsibility, in existing agreements, and 
reserved for other rights.
    The Forest Legacy and tribal assistance programs in Section 
101 and 102 are from the 2002 Farm Bill conference 
deliberations. Section 102, tribal assistance programs, is in 
the same form developed by the conferees and accepted by the 
Forest Service just before the provisions were drafted from the 
Conference Bill when an unrelated difference of opinion caused 
all Senate-side forestry provisions to be eliminated.
    The assistance authorities are based on provisions for 
state governments in the Cooperative Forestry Assistance Act, 
which also includes a Forest Legacy Program.
    The Title II provisions dealing with protecting tribal 
traditional and cultural activities on National Forest Service 
lands are based on legislative suggestions developed and 
presented in the U.S. Forest Service's June 2003 Report of the 
National Tribal Relations Program Implementation Team.
    The ITC also played a major role in identifying the 
shortcoming of the Forest Service in relation to these 
traditional and cultural resources and activities essential to 
each Tribe's way of life.
    The ITC has been diligent in working with Congress but also 
the National Association of State Forester's organization to 
seek support under the State and Private Forestry Office. The 
NASF has met with the ITC on several occasions, and it was the 
intent of the ITC to clearly delineate the Tribes' efforts from 
the states, by communicating early on that the ITC seeking the 
establishment of new funding and a program to handle tribal 
affairs.
    With this stated, it is important to recognize and inform 
you of the ongoing dialog between the two groups that has 
fostered a great working relationship between the two 
organizations, the ITC and the NASF. Also personal friendships 
between each of the respective Board members, and mutual 
understanding of the ongoing forest health and Federal forest 
management issues have strengthened this relationship.
    Our hope is that the Nez Perce will be afforded funding and 
other resource opportunities under the reauthorized Farm Bill, 
in a larger effort to truly assist fish, wildlife, and 
vegetative resources management for our original 7.5 million 
acre Reservation that was ceded to the United States, which the 
U.S. Forest Service and BLM currently manage.
    Much of the Nez Perce Tribe's territory is managed by the 
Forest Service, and as such, the Forest Service holds a trust 
responsibility to ensure the protection, enhancement, 
mitigation, restoration and of course utilization and access to 
these important resources.
    At this time, Senator Crapo, I'd like to thank you for your 
consideration of my presentation to you today. We look forward 
to the successful outcome of the Farm Bill reauthorization.
    [The prepared statement of Ms. Miles can be found on page 
104 in the appendix.]
    Ms. Miles. I have with me Mr. Aaron Miles, who is also the 
natural resource manager for the Nez Perce Tribe, if you should 
have any questions for us.
    Senator Crapo. Thank you very much, Rebecca. I truly 
appreciate the attitude and the opportunities that we have in 
working closely with the Nez Perce Tribe under your leadership.
    I can tell you that as I have been working on multiple 
issues throughout the region here in the last few days, and 
frankly over the last months, and the time period since you 
have become Chairman, it is a constant comment is made to me by 
many of the people throughout the region, that they appreciate 
the good working relationship that we have with the tribe and 
the opportunity that we have to develop collaborative 
opportunities to improve the circumstances.
    So, I just first of all want to publicly thank you and the 
tribe for your approach to being a good partner with all of us 
on these issues.
    In your testimony you indicated your support for tribal 
access to forest lands. Could you please explain a little bit 
more the importance of this and what you have in mind there?
    Ms. Miles. Sure. I can explain briefly, and then Mr. Miles 
can continue.
    Senator Crapo. Certainly.
    Ms. Miles. Access to those lands are vital to our tribal 
members who go and practice our cultural rights to gather 
berries, roots, hunting, those types of activities. Those are 
the types of activities that are important that our tribal 
members bring to us when they don't have access to these areas 
that they may have had access to previously.
    Mr. Miles?
    Mr. Miles. Yes. Senator Crapo. Yeah, that is exactly right. 
There are times when the tribe needs to work more 
collaboratively, and I think the provisions in this hopefully 
that will be in addition to the reauthorization of the Farm 
Bill will assist in us achieving that with the Forest Service.
    Their examples, specific examples, were their closures 
where the tribes are not allowed to be in but they should be 
for cultural and traditional purposes that are very--lead right 
into the religious way of life, too.
    Senator Crapo. Well, thank you. And, again, I noted in your 
testimony, Rebecca, that Sections 101 and 102 that were in the 
2002 Farm Bill conference, and then were dropped during the 
conference, those are Sections 101 and 102 of the Inter-Tribal 
Timber Council's agreement.
    Is that what you are referring to?
    Ms. Miles. Yes.
    Mr. Miles. Yes.
    Senator Crapo. And those are still today not law, is that 
correct?
    Mr. Miles. Yeah. That's what we understand. We are hoping 
to get those back in through this reauthorization.
    Senator Crapo. And I apologize that I am unfamiliar with 
the circumstances that took place at that time. But the reason 
they were dropped from the conference was because of the Senate 
side forestry provisions that were omitted from the conference?
    Mr. Miles. Yeah.
    Senator Crapo. Well, I will take this information back as 
we develop the next Farm Bill and try to determine why those 
provisions were dropped by encouraging you to work closely with 
me and make sure I understand all of the background that you 
can provide to me on that as we move forward.
    Mr. Miles. Senator, also, one other comment, the Inter-
Tribal Timber Council has been fighting really hard also to 
change the name to state tribal and private forestry, in 
addition. And we've worked with NASF quite a few times. We've 
met with them several times to address all of this.
    And originally they were kind of against this whole notion 
of tribes as governments getting involved with Forest Service 
management. And so we worked to dispel all of that, and I think 
they are very supportive of even the name change that we had 
requested, as well.
    Senator Crapo. Good. Well, as I indicated, I have had a lot 
of conversations about management issues in which the tribe is 
involved, and the Forest Service officials in the area are 
certainly I think pleased with the relationship they have and 
looking forward to developing an extended relationships between 
the two. So, I would encourage that.
    I have no further questions. I want to just thank you again 
for presenting your testimony and for your working in 
partnerships with us.
    Ms. Miles. Thank you, Senator Crapo. Enjoy your time here 
in Idaho.
    Senator Crapo. I will do that.
    All right. At this time we will call up panel number 1, 
which is, as I think for those of you who know you are on the 
panel, start coming up please, panel number 1 is Mr. Tim 
Dillin, the Vice-President of Idaho Grain Producers of Idaho, 
from Porthill; Mr. Jim Evans, the Chairman of the USA Dry Pea 
and Lentil Council from Genesee, and the Idaho Dry Pea and 
Lentil Commission; and a slight change from the schedule, we 
have Mr. John VanderWoude, who is here representing the Idaho 
Dairymen's Association, from Twin Falls. No. Not Twin Falls.
    Mr. VanderWoude. I'm from Nampa.
    Senator Crapo. From Nampa. That is what I was going to say. 
And then Mr. Keith Esplin, who is the Executive Director of the 
Potato Growers of Idaho from Blackfoot.
    We welcome all of you here with us. And, again, I remind 
you to watch out for Andree. She will be monitoring you 
closely. But we look forward to your testimony. And we will go 
in the order I introduced you.
    Mr. Dillin, you may proceed.

STATEMENT OF TIM DILLIN, VICE-PRESIDENT, IDAHO GRAIN PRODUCERS 
                   OF IDAHO, PORTHILL, IDAHO

    Mr. Dillin. Thank you, Senator. On behalf of the Idaho 
Grain Producers Association, I'm pleased to be here and I am 
pleased to have been invited.
    My name is Tim Dillin. I raise wheat, barley, and canola in 
Boundary County, Idaho. Just a stone's throw away from the 
Canadian border.
    I currently serve all wheat and barley growers of Idaho as 
Vice-President of the Idaho Grain Producers Association.
    On behalf of the IGPA, National Association of Wheat 
Growers, National Barley Growers Association, I would like to 
thank you personally for your help in requesting the FAPRI 
analysis for both the wheat and barley industries. The analysis 
is and will help us draft a better Farm Bill proposal.
    Let me start by saying that the Idaho Grain Producers 
Association believes that we should write a new Farm Bill in 
2007. A new Farm Bill and the support it provides to 
agriculture is far more important to Idaho growers immediately 
than waiting for a possible restart or eventual conclusions to 
the WTO talks.
    We must never negotiate away our ability to sustain 
America's agricultural producers.
    Now for commodity programs. The 2002 Farm Bill has many 
strong points. The wheat and barley growers that I represent 
here today believe that the next Farm Bill should build on 
these strengths. But, while wheat and barley growers generally 
support current policy, much of the safety net provided by the 
2002 Farm Bill has not been effective for wheat farmers.
    Since 2002, wheat growers have received little or no 
benefit from two key components of the current bill; the 
counter cyclical program and loan deficiency payment program, 
for two main reasons. The loan program and LDP program have not 
worked well for wheat growers. The target price on the counter 
cyclical program for wheat was set considerably lower than 
market conditions indicated.
    In the final hours of negotiations of the 2002 Farm Bill, 
the target price for wheat was reduced when other crops were 
not. That reduction reduces the safety net for wheat growers.
    For Idaho's wheat growers, IGPA recommends that Congress 
increase the direct payment rate for wheat growers and improve 
the price and safety net by increasing the target price for 
wheat.
    Idaho's barley growers also need more from the next Farm 
Bill. Over the next 20 years--Over the past 20 years U.S. 
barley acreage has declined by 73 percent and production has 
declined by 65 percent. 2005 harvested acres of 3.3 million 
acres were the lowest since USDA began collecting statistics in 
1890.
    IGPA and the National Barley Growers Association believe 
that the U.S. barley has lost significant competitiveness in 
its traditional Northern Tier growing region due, in large 
part, to distortions in the Federal farm programs. And there's 
a chart in my written statements.
    For Idaho's barley growers, IGPA recommends that the 2007 
Farm Bill focus on equity for barley growers by ensuring that 
direct payments, loan rates and target prices provide a 
reliable safety net and preventative planning distortions that 
jeopardize the competitiveness of barley production.
    Idaho wheat and barley growers also understand that other 
cropping groups want to be included in the 2007 Farm Bill. IGPA 
does not oppose this request but we will remain steadfast in 
our position that adding new crops will require additional 
money to be authorized or appropriated for the 2007 Farm Bill. 
Distributing what we have now among more crops is unacceptable.
    On conservation. Idaho wheat and barley growers are some of 
the best environmental stewards in the world. IGPA believes 
that conservation programs must continue to be an important 
component of all Farm Bills.
    Conservation programs, however, must continue to be 
designed to encourage conservation and not become the 
distribution system for the farm safety net. Conservation 
compliance regulations, CPR, CSP and EQIP, and all other 
conservation programs, have improved our environment. They have 
been successful because they provide cost sharing and 
incentives to put conservation on the ground.
    Idaho wheat and barley growers support continued funding 
for the conservation programs that are currently in the 2002 
Farm Bill. IGPA recommends that each program be funded at a 
level that will allow the program to succeed and accomplishing 
its purpose.
    IGPA will oppose any attempt to shift money from commodity 
title to the conservation title.
    We would also recommend to your subcommittee that the 
administration of all conservation programs be provided by the 
Farm Service Agency and that the 2007 Farm Bill authorize and 
adequately fund NRCS to provide technical service for 
conservation programs.
    We believe that the focus of conservation programs must be 
to continue providing incentive to agriculture to adapt 
conservation practices and never be authorized to distribute 
commodities for payments.
    And just one final note. I talked to Steve Johnson 
yesterday, and it's about energy. And we would continue to 
support alternative energies, and also anything that we could 
do to alleviate our current energy situation, especially with 
the upcoming planting season.
    And on that note, Senator, I would like to thank you for 
holding hearings in Idaho and we will continue to do anything 
we can to help you in writing the next Farm Bill.
    [The prepared statement of Mr. Dillin can be found on page 
70 in the appendix.]
    Senator Crapo. Thank you very much, Mr. Dillin.
    Mr. Evans.

   STATEMENT OF JIM EVANS, CHAIRMAN, USA DRY PEA AND LENTIL 
  COUNCIL, IDAHO DRY PEA AND LENTIL COMMISSION, GENESEE, IDAHO

    Mr. Evans. My name is Jim Evans. I am a farmer of dry peas, 
lentils, chickpeas, wheat and barley near Genesee, Idaho. I am 
the Chairman of the USA Dry Pea and Lentil Council, a national 
organization representing producers, processors, and exporters 
of dry peas, lentils and chickpeas across the northern tier of 
the United States. I also serve as the Chairman of the Idaho 
Pea and Lentil Commission, an organization representing Idaho 
pulse producers for over 40 years. And usually every Tuesday I 
take out the trash.
    Idaho farmers would like to thank you for serving on the 
Senate Ag Committee as we approach the 2007 Farm Bill. Since 
you are Chairman of the Ag Subcommittee on Forestry, 
Conservation and Rural Revitalization, I would like to begin my 
comments with the conservation title of the Farm Bill.
    The Council believes that our farm policy should reward 
producers for managing soil based on a long-term environmental 
sustainability on working lands.
    First topic. CRP. Conservation Reserve Program has had many 
environmental benefits, but the way it has been managed has 
been devastating to rural communities. It puts fertilizer 
companies out of business. It puts implement companies out of 
business. It takes out rural jobs. Most of the landlords move 
to Arizona or California. It doesn't really bring money back to 
Idaho.
    In the next Farm Bill, CPR should be limited to only the 
most fragile lands and whole farm bids should be difficult to 
obtain.
    CSP. In order to achieve environmental and conservation 
goals of this great country, we need to fully fund the 
Conservation Program. I personally can't qualify for CSP, even 
though I am in the Clearwater drainage, because I have another 
farm that's bigger that's in the Snake River drainage. So I 
don't qualify.
    Sign up for the current CSP program is time consuming, 
complicated, and it often fails to recognize accepted 
conservation practices in a local area. The program should 
reward producers for achieving conservation goals based on 
systems that are economically sustainable and result in 
significantly improved soil, air and water quality.
    The CSP should be modified to reward producers for 
addressing conservation goals in their local watersheds and 
should encourage farmers to diversify their crop portfolios.
    Research. To compete successfully in a global economy we 
need to increase our investment in agricultural research. The 
USDA Agriculture Research Service and our land-grant 
Universities have faced decreasing budgets for years. We 
support increasing agriculture research budgets in the next 
Farm Bill.
    Energy. We fully support programs in the next Farm Bill to 
enhance the development of biodiesel fuels. But we also believe 
that crops like lagumes which do not take energy and actually 
put energy back into the soil should be rewarded for that 
benefit. We should be able to get a payment of some kind for 
that renewable energy source.
    The Marketing Loan Program, the LDP program. I can't say 
enough how much this has helped our industry along. It gives us 
a safety net. I could go to my banker and get a loan now and I 
have a little bit of cushion there to know what's going on.
    We support the counter cyclical, direct and counter 
cyclical payment. Pulse crops are the only crop who do not get 
a payment. We would like to be included in that program because 
we are excluded from Cuba and a lot of different countries that 
are right 90 miles off our shore.
    Planting flexibility. Specifically, the 1996 Farm Bill, we 
were allowed to plant on all our acres. Chickpeas especially 
are a vegetable crop, and we cannot plant those crops on 
program acres. We would like to be able to do that.
    WTO. We support the WTO if it is on an equal playing field. 
We have other barriers that we need to address with the WTO 
program. We have a file sanitary issue with India and China. 
Every time they want to put on a trade barrier, they put on 
some kind of sanitary rules and regulations, and they kick us 
off. Cuba is one country that we want to get into. A year ago 
we shipped 50,000 million--50,000 metric tons of peas into 
Cuba. With the administration's new red tape and guidelines, 
we're down to about less than 7,000 metric tons. It is a 
200,000 metric ton market, and Canada gets it all.
    In conclusion, I would like to say good farm policy should 
encourage farmers to take advantage of market opportunities and 
reward them for crop diversity and management practices that 
help the environment.
    Every country protects their agricultural base in some form 
or fashion. The recently failed WTO negotiations proved that 
most countries are unwilling to leave their farmers 
unprotected.
    If U.S. farmers are to compete against subsidized 
competition, high tariffs and phyto-sanitary barriers, we must 
maintain a strong farm program and protect our agricultural 
producers and their precious natural resource base.
    And I want to thank you for coming to Idaho, and I will 
answer any questions that you have at this time.
    [The prepared statement of Mr. Evans can be found on page 
78 in the appendix.]
    Senator Crapo. Thank you very much, Mr. Evans.
    Mr. VanderWoude.

STATEMENT OF JOHN VANDERWOUDE, BOARD MEMBER, UNITED DAIRYMEN OF 
                      IDAHO, NAMPA, IDAHO

    Mr. VanderWoude. Senator Crapo, my name is John 
VanderWoude. I am a dairy producer out of Nampa, and a United 
Dairymen of Idaho board member, and presently a Republican 
candidate for the Idaho House of Representatives, District 21-
A.
    I'm hoping as a politician now I am allotted a little more 
time because I know politicians never stick to their time. Also 
I have a problem that this speech was written, so I haven't 
practiced it, and so I'm proceed on.
    The Idaho Dairymen's Association was formed as a dairy 
producer advocacy group in 1944 as a dairy producer Board of 
Directors that are elected by their peers.
    All dairy producers in Idaho are members of IDA and pay a 
0.1 cent per hundred weight assessment to cover the cost of the 
organization.
    A little bit about myself. I'm a son of an immigrant, so if 
you want to do work on the immigration bill, we can debate 
that.
    My parents immigrated to California after World War II, 
with four children. They decided to have six more after that. 
And fortunately I was one of those. I dairied in California for 
a while, milking cows for my dad.
    In 1976 I bought my own cows and started dairying down 
there. Seeing the change in land values in California in 1980, 
I moved to Idaho, started milking cows in Idaho for 6 years.
    And then went on one of the government's favorite programs, 
the buyout program to quit milking cows. That idled the dairy 
for 5 years. At that time I bought a milk testing lab. I ran 
that with my son for a while. And then I sent my son off to 
college, and unfortunately I sent him off to Iowa to go to 
college. He roomed with some dairymen's sons and come back and 
decided he wanted to milk cows again. So, we bought some cows 
and I'm back in the dairy business. The education didn't do him 
any good.
    Some people asked, ``Why did you sent your kids to Iowa?'' 
I said, ``So they'd come back.'' And they all did. As you can 
see, my oldest son works in the milk testing lab with me, and 
my daughter has moved to Boise with her husband.
    The upcoming Farm Bill debate should be utilized as a time 
to review the determined long-term effectiveness of the 
agricultural programs.
    Since the 1930's the government has attempted to assist 
agricultural producers by replacing the signals of the market 
that would impact price by keeping supply and demand in check 
with government signals. If the intent of the government's 
support program is to provide an adequate return on time and 
investment, then the outcome shows that the programs have 
failed.
    In 1981 the Class III price, which is the basis for all 
milk pricing and presently the high water mark for pricing in 
Idaho, averaged 12.57. In 2002 it averaged 9.74. And in 2004, 
it averaged 15.39.
    Of the 48 months representing 2000 to 2003, 40 percent of 
the time the monthly Class III price was below the 9.90 support 
price with November of 2000 dipping all the way down to 8.57.
    This extreme volatility in pricing that is lower than the 
prices producers received over 30 years ago is a direct result 
of failed government programs that do not allow the market 
system to work.
    The same results can be seen in the corn market. The 
average price per bushel in 1981 was 2.92. Today that same 
bushel sells for 2.40. I can also give you a personal example--
I am down to 2 minutes. I am not even done with the first page.
    Senator Crapo. We're going to hold you to your 5 minutes, 
but we will get into this in the question and answer.
    Mr. VanderWoude. A personal example of that, I have a 
brother that dairies in California, and the government pays him 
$65,000 not to grow rice. He grows corn and alfalfa just like I 
do for his dairy. That's what he wants to grow.
    Why is the government paying him $65,000 to not grow rice? 
That's part of the failed policy of the program.
    Another example of that is the Milk Income Loss Contract. I 
believe that it interferes with the free market system by 
sending false market signals. It also interferes with other 
government dairy price support programs. This discriminates 
against producers and their operations based on size.
    In 2004 the United States Department of Agriculture 
economic effect of U.S. dairy policy and alternate approaches 
to the milk pricing report to Congress stated that there is 
basically an incompatibility between the MILC and preexisting 
dairy subsidy program.
    The milk price supporting program, which dates to the 
depression era, Agricultural Adjustment Act, should also be 
reviewed to determine if it is fulfilling its purpose as 
intended or inhibiting the market system to function.
    Under that program, the government steps in and buys dairy 
products when the price falls below a certain level. If that 
support price is set low enough, it provides some income 
security to farmers while allowing the market to slowly clear 
and production to fall to the point where prices can rise 
again.
    It is our belief that that program no longer serves its 
stated purpose and allows the price of milk to stay low for an 
extended period of time, longer than if the market system were 
allowed to function without government interference.
    As I stated above, many times since 2000, the Class III 
price dropped below the support price. When this occurs, the 
pay price for Idaho producers, both when we are in the Federal 
marketing order, or now that we are no longer in the Federal 
marketing order, drops below support.
    Another sample I can give you, a personal example, I have 
no time left, a personal example is that I received a letter 
from my processor this past week saying that the government 
make allowance for cheese was 25 cents higher because of their 
cost of producing cheese, and so now my price was 25 cents 
lower. Where is the make allowance for the dairy producer that 
allows him to make.
    Last, I would like to comment on what we would like to see 
in the Farm Bill.
    Another suggestion we would like to see considered in the 
Farm Bill would be the addition of the Cooperative Dairy 
Research Center in Magic Valley. It would be a huge help to the 
industry to mitigate its effect on the environment and be a 
productive way to bring together schools, government agencies 
and others to work together toward helping dairymen in Idaho be 
great stewards of the state land and resources.
    We already have huge interest and cooperation between the 
Idaho Dairymen's Association, the University of Idaho College 
of Agricultural Sciences, the College of Southern Idaho, the 
Department of Agriculture, the Department of Energy through 
Idaho National Lab, and the USDA Agricultural Research Service, 
and we are hoping it won't be long before funds can be 
allocated and further plans can be made toward making this 
dream a reality.
    Thank you for your time.
    [The prepared statement of Mr. VanderWoude can be found on 
page 130 in the appendix.]
    Senator Crapo. Thank you, Mr. VanderWoude.
    Mr. Esplin.

 STATEMENT OF KEITH ESPLIN, EXECUTIVE DIRECTOR, POTATO GROWERS 
                   OF IDAHO, BLACKFOOT, IDAHO

    Mr. Esplin. I appreciate the opportunity to be here today. 
I might tell Mr. Dillin that the reason I am here is because 
all of the potatoes growers are home harvesting their wheat.
    I am Executive Director of the Potato Growers of Idaho, and 
prior to taking this job in 2001, I was a full-time potato 
grower, and my family continues to do that. I also have a 
brother that's a dairyman.
    Before I begin my specific comments on Farm Bill titles, I 
feel compelled to raise an issue, that if not resolved soon, 
will affect specialty crops more than all the titles of the 
Farm Bill combined. I refer to the rapidly developing shortage 
of immigrant farm workers. It is imperative that comprehensive 
immigration reform that includes the ag jobs provision for 
agriculture be passed as quickly as possible.
    We applaud the vision of the Senate in passing this 
comprehensive reform and request that everything possible be 
done to maintain the important provisions for agriculture in 
the House-Senate conference committee.
    Current efforts to tighten the border are contributing to 
an already critical shortage of farm workers. Many of our 
resident farm workers are being enticed with much higher paying 
jobs in the Wyoming gas and coal fields.
    One of Idaho's premier potato seed farmers told me that he 
couldn't get enough workers to sort seed potatoes last spring 
at any price. And we are hearing of shortages on the harvest 
workers coming up already. They are quite severe.
    Other specialty crops have even higher labor needs than 
potatoes. Irreparable harm will be done to the suppliers of our 
nation's fruits and vegetables if a workable guest worker 
program is not enacted soon.
    Now to the Farm Bill. Potato growers currently do not 
receive and do not want to receive direct payments of any kind 
from the next Farm Bill.
    We do believe, however, that there are many things that 
Congress can do to improve the competitiveness of our industry 
by investing in infrastructure, expand the use of the 
conservation programs for specialty crop producers, improve our 
export possibilities, provide protection from invasive pests, 
expand research, and help to increase the consumption of fruits 
and vegetables as targeted USDA's nutritional guidelines.
    Farm programs shouldn't put any sector of the ag economy at 
a disadvantage. Perhaps the greatest priority in the 2007 Farm 
Bill is to maintain the prohibition of planting fruits and 
vegetables on the land where growers receive direct payments 
derived from having a base in a program crop.
    Because of the urgency in addressing the matters I am 
discussing here today, the Potato Growers of Idaho believe that 
a new Farm Bill should be adopted as scheduled, rather than 
extend the current Farm Bill as has been suggested.
    We support the broad principles of the specialty crop 
coalition of which the National Potato Council has helped co-
chair.
    We believe that it is in the best interests of America to 
support a strong specialty crop industry.
    Agricultural areas where specialty crops are grown support 
a much larger economy. Additionally, many specialty crops also 
support a large value-added processing industry.
    Some of the specific Farm Bill titles, I have some comments 
on. The conservation programs--EQIP. As a member of Idaho's 
State NRCS technical committee, I have worked hard to make 
conservation programs more available to specialty crop 
producers.
    We have achieved some success, with NRCS beginning to fund 
some innovative IPM programs through the Environmental Quality 
Improvement Program, EQIP. But much more can be done.
    We believe that a mandatory allotment of EQIP funds for 
specialty crop producers, similar to what currently exists for 
livestock, should be adopted. Environmental benefits are 
reduced pesticide applications can be achieved by helping 
growers adopt new practices, including IPM and organic 
production.
    Also under conservation, the Conservation Security Program 
envisioned by writers of the last Farm Bill truly included some 
innovative concepts. However, the program was not designed to 
work for specialty crop producers.
    Some potato growers have been able to adapt practices that 
allowed them to participate in CSP, but it would be very 
difficult for most. Producers of other specialty crops that 
require more soil cultivation, such as sugar beets, dry edible 
beans, and onions, will most likely find it impossible to 
qualify for CSP.
    The biggest problem with CSP, however, is the slow and 
completely unfair way in which it is being implemented. It is 
absolutely unfair and improper that one grower may be receiving 
payments of 40,000 a year, while a competing producer, in a 
different watershed, has not even had an opportunity to sign 
up; and at the current rate, may never get that chance.
    The CSP program either needs to be revised and adequately 
funded or canceled. And if it is canceled, we recommend that 
EQIP funds should--or if it is funded, then EQIP funds should 
be used to help growers qualify for CSP, or if it is canceled, 
then perhaps that money could go into EQIP.
    Under risk management. Multi-peril crop insurance continues 
to be unaffordable for many potato growers and specialty crop 
producers. The current program does not adequately protect seed 
potato producers.
    We suggest a pilot project that would redirect subsidies 
used for crop insurance into a disaster saving account program 
that would help producers buildup a savings account to use in 
times of crop disaster.
    We would also like a pilot program to develop a workable 
seed potato insurance product. We offer our assistance in 
developing these kinds of programs, which would also reduce the 
need for ad hoc disaster assistance.
    We also have serious concerns about the pilot adjusted 
gross revenue program. We believe that despite efforts to make 
the program work, it is still too subject to fraud and is still 
marketing distorting. It also doesn't work for producers that 
are consolidating and expanding their operations.
    Also the AGR Lite program will not work for most potato and 
specialty crop producers due to the gross revenue limit.
    Just real fast. We also support the energy--anything we can 
do to produce our own energy and we believe that could have a 
great impact on us. We believe that transportation needs are 
great. We need help in those areas. We would also like to see 
research expanded, including a significant research into 
organic production and conversation to organic systems.
    [The prepared statement of Mr. Esplin can be found on page 
74 in the appendix.]
    Senator Crapo. Thank you very much, Mr. Esplin.
    And I want to thank each member of the panel for being 
concise and watching the clock there. I told you you'd run out 
of time before you would run out of things to say. But please 
be aware, I have personally read your testimony, and not only 
have I, but our staff has, and the Senate committee staff will 
also review it very carefully. So, the points that you may not 
have been able to get to in terms of what you were able to say 
in your oral testimony are not lost. And we will have an 
opportunity to get into them a little bit more here in the 
suggestion.
    There is a tremendous amount of wise input in the testimony 
that you have provided. I won't myself in this discussion here 
be able to get into everything that we would like to. So please 
don't hesitate, and I'm speaking not only to you, but to 
everyone here, please don't hesitate to contact me or my office 
and discuss the concerns that you have as we move forward in 
developing the Farm Bill.
    Mr. Dillin, the question that I had for you is, how would 
you prioritize in terms of the importance, in your opinion, the 
various farm programs that we generally have in the commodity 
title, and really what I am asking is, can you, if you can, 
rank the relative importance of the direct payment program 
versus the Marketing Loan Program and the counter cyclical 
payment program.
    Mr. Dillin. Senator, I would say for wheat, about the only 
thing we've really gotten out of it for wheat are the direct 
payments. Like I say, we really haven't been able to capitalize 
on the counter cyclical or the LDP's, because of the loan rate.
    Barley, we have gotten a counter cyclical payment. We 
received another one this year. And that's good news and bad, I 
guess, because that means the price of barley was low enough to 
trigger the counter cyclical payment, which isn't necessarily a 
good thing.
    I know that NOG has gotten their Farm Bill proposal pretty 
much wrapped up, and I think barley, I think they've got the 
FABRI study back, or will be getting it back, so they will be 
coming up with their Farm Bill proposal for that.
    Senator Crapo. And you don't have any objections to 
including, say, the pulse crops in the programs, as long as we 
expand the funding so we increase the pie, if we increase the 
size of the program?
    Mr. Dillin. Correct.
    Senator Crapo. Mr. Evans, would you like to comment on that 
whole issue any further, the relative importance of these 
programs? I know that you were seeking to have the direct and 
counter cyclical payments expanded to pulse crops.
    Mr. Evans. Yes. We would like to have a direct or counter 
cyclical payment program. We support everything--I mean, the 
loan LDT program for our industry is probably the key thing.
    As we do the WTO negotiations and we are moving toward so-
called green payments, or different ways of rewarding farmers 
for good soil practices, I don't want to move away from the 
loan program until we know what we're jumping into. I don't 
want to jump into--I don't want to high drive into an empty 
swimming pool, is what I'm looking at.
    Senator Crapo. I think that's a very good way of putting 
it. In fact, let me interrupt you for a moment. I would of like 
to just toss this question out to anybody on the panel that 
would like to further discuss it.
    But it seems to me, as you all know, there's a lot of 
pressure in the world trade negotiations for the United States 
to modify its farm programs, sort of as an incentive for other 
countries to come to an agreement with us in terms of the WTO 
negotiations.
    My position on that is, as you have expressed, Mr. Evans, 
and that is that I believe that we in the United States would 
be very willing to modify our national farm policies and 
programs to fit a WTO agreement that we could reach with other 
nations, but that would be after the agreement is reached and 
after all nations were bound to the same terms.
    And at that point I think we would be willing to discuss 
what types of modifications should be made.
    But I think it would be a very serious mistake for the 
United States to unilaterally adjust its farm programs in 
contemplation that other nations just might then think it's a 
good idea to follow suit, with no binding agreement.
    Anybody want to jump in on that general issue? Do you agree 
or disagree with what I am saying, or how do you feel we should 
deal with the WTO? Mr. Dillin?
    Mr. Dillin. Senator, I believe that the American farmer, we 
can out compete and probably play on the world stage just as 
well as anyone can, if we have a level playing field.
    If we can send our products into other countries, living 
right on the Canadian border, it seems strange that they have 
vital sanitary rules that I can't ship barley to a dairy 
producer that wants to buy it seven miles away. But yet they 
can bring everything into the U.S. We need--if we have a level 
playing field, we can compete.
    Senator Crapo. Well, and you have raised another aspect of 
this, one which I am very aggressively working with our U.S. 
trade representatives on, and that is that we see nontariff 
barriers, like the phyto-sanitary barriers and others, utilized 
regularly against U.S. commodities, in what are in my opinion 
unfair ways, unjustified ways.
    The solution to that has to be a very effective enforcement 
mechanism, I guess, where we force ourselves and other nations 
to stay with the rules that we can all agree to, which has to 
be another part of all of this. It won't be necessarily in the 
Farm Bill. It will be in the trade negotiations. But it is 
critical, and that's one of the reasons why I say, I think we 
should develop our farm policy based on the current status quo, 
of world trade negotiations and economic circumstances, and 
then be prepared to adjust it if and at such time we get a 
trade agreement that is binding on all nations.
    Any other comment on that general issue?
    Let me go on, then, and move to you, Mr. VanderWoude. Milk 
policy in this country has been a challenge, to say the least, 
for decades, and we still face it.
    I appreciated your testimony about the difficulties that 
you and the Idaho dairymen see with the general milk policies 
that we have today, the milk programs, as well as the milk 
income loss contract, the MILC program.
    As you may be aware, I have been one of the leading 
opponents of that program in Congress. And we continue to see 
it sort of limp along and maintain, although sometimes we think 
it is on life support, it continues to be maintained. And 
partly that's because of national politics.
    And it's my hope that at some point we will be able to get 
a rationale milk policy.
    But could you just discuss with me a little bit more, if we 
can get to the point in Congress, where we are able to adjust 
the milk programs, we've got the votes to change what we have 
now, and to move to something more sensible, what should that 
be?
    Mr. VanderWoude. I think we should move to basically a 
market system where the market takes care of itself.
    The system we have now, is, you know, when the government 
buys up the surplus, every time the government reports what it 
has in inventory, affects the price we're getting. So they are 
really not removing the surplus, they are just storing it and 
suppressing the price.
    Senator Crapo. Right.
    Mr. VanderWoude. We need to get to the point where the 
market clears itself and there's not that interference with the 
inventory pricing on milk. You know, we need to make the 
adjustments, then, in the milk industry.
    We have, you know, in the testimony that's written we have 
the CWT, which is cooperates working together.
    The dairymen are assessing themselves and removing cows off 
the market.
    If we can continue with that program, we will control the 
supply and be able to control the prices and monitor that 
without the government inference.
    But if we put in our ten cents to get rid of cows and the 
government gives back the ten cents to the guy who doesn't get 
rid of cows, one of them is defeating the other one, and the 
status is staying the same.
    We need to have the government get out of trying to falsely 
support the price of milk, and let us do it on a market system. 
And even Idaho is no longer in the Federal milk marketing 
order.
    Like I said in my testimony, we're still getting an 
adjustment of 25 cents down, because the Federal marketing 
order says there's a make allowance on cheese.
    Senator Crapo. Right. Boy, I appreciate that. Because I see 
it the same way you do. And one way or another, we've got to 
get the national milk programs, whether it be the Federal 
marketing order system or whether it be the MLIC program, or 
others, we've got to get them eliminated and moved to a system 
that would allow a true market to operate.
    It seems to me that the governmental management of the milk 
market nationally has worked to the detriment of consumers and 
producers. And somehow--and to the Federal budget. So some how 
we've got a lose, lose and lose proposition right now, in terms 
of the way it's working.
    Mr. VanderWoude. Yeah. You know, as it shows there, we 
spent two billion dollars on the MILC, and yet everybody is 
talking about, well, we need to cut government spending. Well, 
we've got a good idea of how you can cut two billion of it out.
    Senator Crapo. And say two billion right there.
    Mr. VanderWoude. Two billion right off the top.
    Senator Crapo. And the producers would be better of, as 
well as the consumers.
    Mr. VanderWoude. Yeah. The thing you look at, and I look at 
it, you know, 30 years ago when I bought my first car, it was 
3,000, and gas was 30 cents.
    The government doesn't control cars or gas.
    Now the car is 30,000 and the gas is three bucks. Almost 
like three bucks.
    But the price of milk is about the same, what the farmer 
gets paid.
    The government's I think interfering with what would have 
been a free market, would have allowed us to be a little more 
reasonable priced on our milk.
    Senator Crapo. Thank you. And I appreciate that. I also 
want to let you know I appreciate your testimony on the 
Collaborative Dairy Research Center in Magic Valley. I think 
that's a very good idea. We're trying to figure out a way to 
boost that idea.
    Mr. VanderWoude. One of the things that we as a dairy 
industry have found in the last couple years, we've had 
lawsuits from the environmentalists, and there isn't solid 
research to document what the problems are, or solve the 
problems.
    We've got dairies that have spent hundreds of thousands of 
dollars trying to solve a problem that didn't solve a problem.
    We need to get some research dollars behind the 
environmental issues in the dairy industry, especially in Idaho 
where we're like the fourth largest state in the union with the 
number of cows we have, and we need to get some solid research 
behind that so we can solve the problems that are created.
    Senator Crapo. I definitely agree.
    Mr. Esplin, again, thank you for your friendship and for 
being here today and for your testimony as well. I want to talk 
to you on several issues that you raised.
    The first of course being immigration. I agree with you, 
that we need a comprehensive bill. There are some who are 
saying that we just need to move ahead with border enforcement 
now.
    But what your testimony illustrates, is that the border 
enforcement, which is needed and which is a necessary part of 
any comprehensive bill, is already happening, as a matter of 
fact, and we need to do it better.
    But what it's doing is, it's showing that without the other 
piece with it, that it reduces the availability of workers.
    And we need to have a system, as I see it, in which those 
who desire, foreign workers who desire to work here, and have a 
legal status and be able to travel freely back and forth 
between their country and ours, and to have the various aspects 
of worker status clearly spelled out.
    What I am talking about there is the wage and the labor 
policies and the other aspects of it, the health care issues, 
the pension issues, and so forth, all worked out and 
understood.
    It seems to me, it's hard to predict what Congress' will is 
on this, because, as you know, there is a difference between 
the Senate and the House. But I believe that there is a 
majority that would agree to a comprehensive bill if that 
comprehensive bill involved a legal status other than 
citizenship.
    The question I think comes down to whether those who are 
here and who have come here illegally should be granted a track 
toward citizenship or should they be granted a track toward 
legal status for employment.
    Would you like to comment on how critical the citizenship 
piece of the proposal is to the ultimate solution?
    Mr. Esplin. That's a good question.
    Senator Crapo. It's a difficult one to ask.
    Mr. Esplin. We believe we've got to have more than just a 
guest worker program, because I think the H2A program, takes in 
about 2 percent of our workers, and even as it is, it's 
overwhelmed right now. And even if we did everything we can to 
streamline it, it would create--we'd have to create almost 
overnight a huge bureaucracy to handle the size program we'd 
need.
    And that's because we've let the problem go on so long and 
the needs have gotten so great.
    As far as the legalization part, that's a difficult one to 
say. My personal concern would be about, you know, creating a 
second class level of people in the United States.
    I was in a Caribbean country once, with the British empire, 
and no one could get citizenship there, even after being born 
there, and it was down to the point where even 20 or 30 percent 
of the people were all that could vote or do anything.
    And I think we have got to be real careful we don't get 
long term trends that would be bad for the country. But if they 
could have the same path as anyone else, while they are 
working----
    Senator Crapo. To apply for citizenship.
    Mr. Esplin [continuing]. While they are still working, I 
think that would be a workable program.
    Senator Crapo. All right. Thank you. I kind of think so, 
too. And I agree, I should have mentioned that.
    I don't think there is an objection to allowing anyone who 
is not a citizen to apply for citizenship, in the same track 
that everyone else who wants to apply for citizenship here has 
to follow. And if we could establish something like that, maybe 
it would work out.
    I wish I could tell you how that is going to play itself 
out in the Congress. It is probably--I won't say ``probably.'' 
It is one of the most contentious and most significant issues 
that we have before us in Congress right now.
    I do believe that it will be engaged. It's not one of those 
issues that I think will be put on the back burner. It is hard 
to know right now where that consensus will ultimately come 
out.
    Mr. Esplin. Thank you.
    Senator Crapo. With regard to, a number of you raised a 
question of energy, and again, that's another one of those 
issues that is not just in the context of the Farm Bill, but in 
many contexts, is one of those that is critical.
    And I'm glad there is an energy title in the Farm Bill 
where we can try to do those types of things where our food and 
fiber policy of the Nation can help us to address long term, 
energy policies that we need to address.
    I have found it is interesting, several, I can't remember 
which one of you suggested, that their--was it you, Mr. Evans, 
about the crops that are able to conserve energy.
    Mr. Evans. Yes.
    Senator Crapo. That we should focus on the conservation as 
well as on the assumption side of the energy equation.
    I think that's a very wise suggestion, which I will take 
up.
    I don't know that I have a specific question for any of 
you, other than maybe a request, and that is that you either 
today or in the future continue to give us your suggests as to 
what we can do in the context of farm policy, to address and 
strengthen our energy situation in the country.
    I'll just make a quick statement, and that is we are still 
somewhat constrained in the Congress because of different 
approaches between--different parties and different regions, 
with regard to what our energy policy should be.
    Some of us, and I'm on this side, believe that we need to 
significantly diversify our energy portfolio. Meaning, that we 
should not be so dependent on petroleum. We should move into 
many other types of energy, whether it be biobased energies, 
the renewable fuels, the things like, you know, ethenol and so 
forth, nuclear power, wind and solar, and increase the research 
on the hydrogen potential. And really be very broad and diverse 
in our approach to becoming less dependent on petroleum.
    But we also realize what while we do that, there will still 
be probably several decades, assuming we could successfully 
make that transition, it will take several decades to do so, 
and during that time we will still be very dependent on a 
proper petroleum policy in this country, and we will need to be 
as expansive as we can be in an environmentally safe way to 
developing our own resources.
    But in any event there is a big battle over that, and I 
would just encourage all of you to keep us posted on your 
thoughts as to how we could address it. Anybody want to jump in 
right now with anything, or----
    Mr. Esplin. Senator, one thing I read, it was a study done 
by, I don't know which university, it pointed out that prior to 
World War II, about half of the U.S. farm land was producing 
energy. It was energy to feed the horses that produced the rest 
of it.
    Senator Crapo. That's right.
    Mr. Esplin. And after the war, we've been basically in 
surplus commodities ever since we've put everything under 
production of actual food crops. So, I think it's totally 
natural and fitting that we put part of our land back to 
producing energy again.
    Senator Crapo. That's a very good suggest. We have 
tremendous resources and the inventive creativity of the 
American people can solve this problem, if we can come together 
and be unified in an approach.
    One other question. Actually, a couple other questions 
before I excuse you and move on to the next panel.
    A number of you have mentioned the conservation programs in 
general, and the CSP program in particular. And I am very aware 
of both the support for the CSP program because of what it can 
provide, if properly implemented, but also the concerns about 
the CSP program in the sense that it is not being fairly 
implemented and we will see farmers who are able to access it 
and farmers who are not able to access it in a way that creates 
a competitive disadvantage and a serious disparity in our 
agricultural communities.
    So, I guess maybe again I just want to let you know that I 
am and we in Congress in general are aware of that.
    The problem that we face there is that the CSP program is 
so good, if you will, or potentially so good, that to fully 
fund it would go far beyond the budget potential that we have 
for the entire conservation title.
    And so we've got to figure out a way to make it fair within 
the budget constraints that we have.
    This was the same battle that we had when we were first 
considering it in 2002 as a new program.
    And I just welcome any of your suggestions. I have already 
received some suggestions from others who are not testifying 
here today, and we are going to continue to discuss this issue 
a lot, I am sure. But any suggestions that any of you might 
have, I would appreciate.
    I'm not surprised that you don't have the answer on the tip 
of your tongue, because if you did----
    Mr. VanderWoude. I might suggest, we've got to quit farming 
the government and start farming the land.
    Senator Crapo. Well, that's a very good point. Quit farming 
the government, and start farming the land.
    One of the things that the CSP program and other 
conservation programs are helpful in doing is providing some 
resources to agricultural producers to meet the environmental 
mandates that the Federal law is placing on them.
    But still it doesn't explain how--it doesn't explain how we 
are going to fairly implement this program.
    And so I just encourage you to keep thinking about it, and 
as you come up with ideas, please feed them to us, and let us 
know.
    The last question I'll toss out to this panel is, another 
issue that Mr. Esplin raised, and that is whether a new Farm 
Bill--whether the Congress should continue working aggressively 
on developing a new Farm Bill or should we simply extend the 
current Farm Bill.
    Any thoughts on that? Mr. Esplin, do you want to elaborate 
a little bit first?
    Mr. Esplin. Part of the reason that we believe we should go 
ahead and develop the new Farm Bill now, is that we feel like 
specialty crops have been disadvantaged since the last Farm 
Bill.
    Although we are not asking for any direct payments, I think 
specialty crops get about 1 percent of the Farm Bill spending 
and produce, it depends on whether you add in horticulture and 
everything, 30 to 50 percent of all farm receipts.
    So, basically the specialty crop coalition's approach to 
put more money into research and export programs and things 
like that, would raise that up to about 7 percent. And we feel 
there has been a real disparity that needs to be corrected 
there.
    Senator Crapo. Thank you. Any other thoughts on that issue?
    Mr. Dillin. Senator, like I said, Idaho grain producers 
are--we are firmly committed to having a new Farm Bill written, 
just because of the inequities mentioned in my testimony. So, 
we would really like to see a new Farm Bill.
    Senator Crapo. That would also give us an opportunity to 
loot at the CSP program and some of the other things like that, 
too.
    Mr. Evans. One comment I would like to make.
    Senator Crapo. Yes.
    Mr. Evans. If we do rewrite the Farm Bill, it needs to be a 
long-term commitment, like the loan program that's been in 
business--I mean, there isn't a farmer that's farming now that 
hasn't used the loan program. And be it good or bad, it worked 
to a certain extent.
    And we need some kind of safety net for our young farmers 
of 25, 24, 25 year old kids that are coming out here so that 
when they go to apply for a two or three or $400,000 loan, 
they've got some kind of cushion that they're going to be 
farming next year and the year after that.
    Senator Crapo. I think that is a very good point. Let me 
tell you, what I am hearing you say is something that has been 
said to me a lot. I think you all probably know, either I or 
Don Dixon or somebody else on my staff, has held about 23 or 24 
meetings around the state already, not formal hearings like 
this, but informal meetings in various regions of the state.
    And one of the very consistent messages that we got was 
that, yes, we should rewrite the Farm Bill now, we should 
engage in that, because they are he can inequities, there are 
improvements, there are issues that we need to refine.
    But the basic structure of the Farm Bill, with the 
commodity program in particular, should be preserved, refined 
and improved, but the basic structure of the safety net should 
be preserved.
    Any disagreement with that?
    Mr. Esplin. On the milk part----
    Senator Crapo. Except on the milk part.
    Mr. Esplin. Put it in CSP.
    Senator Crapo. I should have pointed that one out.
    You know, I do have one other question. And that is, as you 
probably all know, there's going to almost certainly going to 
be an effort to reduce the payment limits in the next Farm 
Bill. There's always that effort. Any thoughts on that issue?
    Mr. Esplin. That's one tough one. But I know that, you 
know, the reality is modern day farms are large enough to where 
a lot of our farms already, if you look at fairness, aren't 
being treated fairly by the current payment limits, but to 
lower them further probably would not--would increase a lot of 
inequities. It would probably be like maintaining the milk 
program for the smallest producers, without benefiting the 
overall industry.
    Senator Crapo. All right. Well, I appreciate that. Those 
are the kind of perspectives that are going to be very helpful 
for us.
    The Farm Bill is one of the most significant pieces of 
legislation that our nation deals with every five to 7 years. 
And we have a tremendous opportunity now in very important and 
difficult times to make some significant policy decisions that 
will have very far reaching ramifications in many aspects, not 
just in farm country, but in many aspects of our economy and 
our global dynamics.
    So, I thank you for your testimony today, I thank you for 
your thoughtful insights, and encourage you to keep it coming.
    Thank you. We will excuse this panel. Thank you.
    We will now move to our second panel. And while I'm--the 
second panel, please come on up, while I'm introducing you.
    Our second panel consists of Mr. Kyle Hawley, President of 
the Idaho Association of Soil Conservation Districts from 
Moscow; Mr. Lloyd Knight, the Executive Director of the Idaho 
Cattle Association; Mr. Laird Noh, trustee of the Nature 
Conservancy of Idaho, from Kimberly; and Mr. Terry Mansfield, 
the Deputy Director of the Idaho Department of Fish and Game, 
on behalf of the Association of Fish and Wildlife Agencies, 
from Boise.
    We welcome all of your here with us today. I will remind 
you guys to watch Andree. She's the most important person up 
here today.
    And with that, we will go with you in the order that I 
introduced you. Mr. Hawley, you are free to begin. Thank you.

STATEMENT OF KYLE HAWLEY, PRESIDENT, IDAHO ASSOCIATION OF SOIL 
             CONSERVATION DISTRICTS, MOSCOW, IDAHO

    Mr. Hawley. Good morning, Senator Crapo. I am Kyle Hawley, 
President of the Idaho Association of Soil Conservation 
Districts, and a farmer here in the Moscow area.
    The Idaho Association of Conservation Districts was founded 
in 1944 and represents Idaho's 51 conservation districts. I 
present my testimony on behalf of the Association.
    I started farming in 1978 and our family operation is 
located in the Palouse prairie, one of the most productive, but 
also one of the most erodible rain-fed agricultural areas in 
the world.
    We raise winter wheat, spring wheat, spring barley, peas, 
lentils, and several turf and reclamation varieties of grass.
    I am a proud graduate of the University of Idaho.
    I will now get down to the main purpose of the hearing: 
What changes need to be made to the 2002 Farm Bill to make the 
2007 Farm Bill more workable, fair, effective and efficient.
    Number 1. Technical assistance. Technical assistance is the 
key to getting programs implemented and conservation applied to 
the landscape in a timely, efficient and effective manner. 
Without adequate technical assistance, the available financial 
assistance cannot be effectively utilized.
    Technical assistance support needs to come from each 
individual Farm Bill program.
    Number 2. Financial assistance. We believe that cost share 
rates should be correlated to the benefits that society 
receives from implemented conservation practices. Local 
conservation district priorities should also be considered in 
establishing these rates.
    Number 3. Conservation Security Program. CSP. It is a great 
program. However, it is receiving considerable criticism due to 
insufficient funding. If the program continues at a seriously 
under-funded rate, we would recommend the following: Give each 
state an annual allocation of funds; give each state their 
allocation prior to the state making their watershed 
selections; make watershed selections at the state level; make 
contract selection and funding amounts at the state level.
    Number 4. Conservation programs. To improve effectiveness 
and efficiency we believe the tool box of conservation programs 
should be grouped into the following four main categories: 
Easement programs; cost share programs; land retirement 
programs; and land stewardship programs.
    Categorizing programs by their purpose would help program 
participants and those technicians assisting them save time in 
selecting an option that would meet the producers conservation 
objective and best fit their operation.
    Number 5. Energy policy. We need to develop a comprehensive 
energy policy that dove tails with our farm policy. This energy 
policy would emphasize conservation measures and reward those 
who conserve energy; reduce our dependency on foreign oil; and 
encourages the development of biofuels.
    Number 6. Farm policy. America needs a farm policy. 
American farmers need a strategic farm policy. We as 
agricultural producers need to know how our politicians, the 
government and the people of America really feel about the 
future existence of farmers.
    I started farming in 1978. My production costs were fairly 
reasonable compared to the prices I received for my commodities 
produced.
    Today most production costs have doubled or tripled, as 
what they were in 1978. However, the price I receive for my 
commodities are the same or less than what they were in 1978.
    Is it possible we might find ourselves in a food dependency 
situation similar to our current oil dependency situation? If 
so, this issue should be considered a matter of national 
security.
    It would be in our nation's best interest to discuss these 
issues in an open forum. Therefore, we recommend and encourage 
Congress to organize a national agricultural summit where 
officials, agricultural organizations and producers would 
discuss these issues. The output would be a long-term strategic 
plan establishing American farm policy which would be reviewed 
annually and upgraded when appropriate.
    A appropriate title for this summit be the future of U.S. 
agriculture and the American farm family.
    In conclusion, society should not expect conservation to 
occur until after the farmer's and rancher's livelihood are 
fully supported.
    On behalf of the Idaho Association of Conservation 
Districts, it was an honor to be able to testify before you 
today. I want to thank you, Senator Crapo, for allowing me to 
testify and give you my thoughts on the 2002 Farm Bill and how 
it might be improved for 2007.
    [The prepared statement of Mr. Hawley can be found on page 
86 in the appendix.]
    Senator Crapo. Thank you very much, Mr. Hawley.
    Mr. Knight?

  STATEMENT OF LLOYD KNIGHT, EXECUTIVE DIRECTOR, IDAHO CATTLE 
                  ASSOCIATION, ROBERTS, IDAHO

    Mr. Knight. Good morning, Senator.
    Senator Crapo. Good morning.
    Mr. Knight. My name is Lloyd Knight. I'm Executive Vice-
President of the Idaho Cattlemen's Association, a trade 
association serving Idaho's cattle industry here in the state.
    We appreciate you having this hearing in the state. We have 
had a great opportunity to visit with your staff, Stacy, Andree 
and Don Dixon, about some of our views and talk about our 
operations, and I appreciate the opportunity to share some of 
those thoughts this morning.
    As with most agricultural producers in the country, our 
members have been anxious to begin work in crafting the 2007 
Farm Bill.
    As cattle producers, our members' livelihood is tied to 
many other agricultural commodities. Livestock consumes three 
out of four bushels of the major feed grains in the country, 
like corn and barley, and cattle in feedlots account for nearly 
one-fourth of the total grain consuming animal units, and all 
beef cattle account for nearly 30 percent.
    However, unlike many ag commodity groups, however, we have 
a little bit different take on ag policy.
    Our industry in Idaho is made up of over two million head 
of cattle on family operated farms, ranches, and feedlots 
across the state.
    Cash receipts from cattle and calves in 2005 were over a 
billion dollars, and those sales account for nearly one-quarter 
of all farm receipts. Our members are an independent lot. We 
want the opportunity to run their operations as they see fit 
with minimal intrusion from the government.
    As the nation's largest segment of agriculture, the cattle 
industry is focused on continuing to work toward agricultural 
policy which minimizes direct Federal involvement; achieves a 
reduction in Federal spending; and preserves the right of 
individual choice in the management of our resources.
    There are portions of Federal ag policy that we can work on 
together to truly ensure the future of the cattle business in 
the United States. Conservation programs especially present 
some of the best opportunities. Our operations are very highly 
regulated with regards to environmental issues. The 2002 Farm 
Bill provided excellent opportunity for our members to work 
with NRCS and gain the technical assistance and cost share 
assistance that they needed to help achieve compliance with all 
of these environmental regulations.
    Even our cow/calf operations are being faced with the 
prospect of having to come into compliance with regulations at 
EPA regarding CAFO requirements, Clean Water requirements, 
permit requirements, and NRCS in those conservation programs 
has been very helpful in ensuring that they have a tool 
available to try to keep up with those new requirements.
    The goal of conservation and environmental programs is to 
achieve the greatest environmental benefit with the resources 
available.
    One of the best programs we see is EQIP. Cattle producers 
across the country and certainly across the state participate 
in this program. And they found it very helpful and we 
encourage full funding for that to continue, make sure it has 
the resources available.
    These environmental issues are a huge challenge for our 
industry. We understand the need for environmental regulations 
to protect resources downstream, and we believe those producers 
that knowingly and willingly pollute and violate Clean Air and 
Clean Water Act should be prosecuted to the fullest extent of 
the law.
    However, the use of other vehicles such as EPA SuperFund to 
sue agricultural producers in an attempt to get larger 
settlements is egregious and threatens the future of ag 
producers, both large and small.
    This, combined with EPA's talk of regulating agricultural 
dust, animal emissions and other naturally occurring substances 
makes us all concerned for our industry.
    Although these items are not addressed in the Farm Bill, we 
ask that you help us, step in and help ag producers fight the 
fight and have effective and sensible environmental regulation.
    All of the other ingredients in the Farm Bill are also 
important. Obviously the beef industry is facing significant 
trade challenges in the last several years. We appreciate the 
help you have provided in helping to open up those markets 
across the world, around the world.
    We really support those government programs such as the 
Market Access Program and Foreign Market Development Program 
which help extend those opportunities for U.S. beef.
    We recognize that 96 percent of the world's consumers are 
outside our borders. We want to make sure we get beef on their 
tables, as well.
    Animal I.D. is another significant issue. We are--we 
continue to believe, our members continue to believe that in 
the importance of a voluntary animal identification system. We 
are supportive of the U.S. animal identification organization, 
or USAIO, a privately held data base that would help provide 
that trace-back mechanism for livestock.
    We know that you have visited with our members a number of 
times about that issue, and that is one that we want to ensure 
is included in the discussion surrounding the Farm Bill.
    Since my time's up, I'll wait for questions. Thank you, 
Senator. I don't want her mad at me.
    [The prepared statement of Mr. Knight can be found on page 
92 in the appendix.]
    Senator Crapo. Smart man.
    Senator Noh, I've got to just interrupt a minute here. 
Again I want to welcome you, Laird. I served 8 years in the 
Idaho State Senate with Senator Noh, and it was a pleasure to 
work with you then and to see you here today. Thank you for 
coming.
    Mr. Noh. Thank you, Senator. I have closed my eyes and 
still hear your voice resonating in the dome of the Senate.
    Senator Crapo. Oh, you're so nice.

  STATEMENT OF LAIRD NOH, TRUSTEE, THE NATURE CONSERVANCY OF 
                     IDAHO, KIMBERLY, IDAHO

    Mr. Noh. But good morning, Chairman Crapo, and again I want 
to thank you for this opportunity to appear before the 
subcommittee and for your particular attention on this critical 
issue of conservation in the 2007 Farm Bill.
    My name is Laird Noh of Kimberly, Idaho. Our family has 
been continuously in the business of producing lamb wool, and 
sometimes cattle, on rangelands since the 1890's, through five 
generations.
    I did serve probably too long in the Idaho Senate. I also 
served as Chairman of the Board of Directors of the Rocky 
Mountain Sheep Marketing Association, which markets some 70 to 
a hundred thousand lambs each year.
    But I am here today testifying in behalf of the Nature 
Conservancy, for which I have been a trustee of the Idaho 
chapter for 20 years.
    The Conservancy is an international, nonprofit organization 
dedicated to the conservation of biological diversity.
    We have helped conserve nearly 15 million acres of land in 
the United States and Canada by working in partnership with 
private landowners, businesses, like-minded organizations and 
state and Federal Governments.
    The Nature Conservancy has identified proposals which we 
believe will improve existing USDA conservation programs and 
enhance wildlife habitat. Attached for the record is a copy of 
the complete Conservancy Farm Bill platform. But for the 
purpose of this hearing, I would like to highlight one 
particular area--our nation's grazing lands.
    The Conservancy recognizes in this regard very fully that 
farming, ranching, and conservation work hand in hand to reach 
mutual goals.
    So the Conservancy has two major themes which we think 
about, as opportunities for grazing land conservation in the 
new Farm Bill. Number 1, we want to keep ranchers ranching, and 
Number 2, we want to reward good stewardship of our nation's 
grazing land.
    We believe these themes address the two overarching threats 
grazing lands face today; conversion to other uses, and 
degradation from threats like invasive species, altered fire 
regimes, and sometimes inappropriate grazing practices.
    Grazing lands provide many benefits to people, including 
clean air, water, forage for livestock, and habitat for 
wildlife. These lands include the prairies, the great plains, 
Savannahs in Texas and Florida, and shrub lands and deserts 
throughout the west. These lands cover about 40 percent of the 
U.S. and comprise nearly 80 percent of our western landscapes. 
By some estimates over 70 percent of all mammals and birds in 
the U.S. use grazing lands during some part of the year.
    In Idaho there are 32 species of concern which exist on 
these lands under the state wildlife management strategy. 
Currently the annual loss of these rangelands in the 11 Western 
States may be as high as two to three million acres, and 
another million acres lost every year in the great plains. 
Despite these great losses, conservation and management of 
rangelands remain alarmingly underfunded when compared to 
forests and other western land types in particular.
    The 2002 Farm Bill took great steps for protection of our 
rangelands, with the creation of the Grassland Reserve Program. 
Under GRP, ranchers can enroll in rental contracts or easements 
that prohibit the development and other activities incompatible 
with conserving such lands. Congress authorized GRP to enroll 
up to two million acres, at a cost of up to $254 million.
    However, this program has already used up its authorized 
funding and is now left to languish until the next 
reauthorization of the Bill.
    The demand for this new program was tremendous. In fiscal 
2004 and 2005, USDA allocated $147 million, but 2.4 million 
went unfunded.
    We think this is a very important program. I have some 
comments about it in the expanded portion of my remarks.
    I want to say that our real goal is to keep ranchers 
ranching on the land, and also encourage good stewardship 
programs.
    For example, the new Farm Bill should increase funding 
incentives to present control of invasive species. This year 
the Idaho NRCS office made funds available to fight invasive 
species through the Conservation Innovation Grants Program. It 
works. We need it in Owyhee County, which you are very familiar 
with, Senator, to deal with leafy spurge and a number of other 
programs.
    Conversion of our working lands, invasive species, 
declining water resources, climate change, all threaten our 
natural resources and habitat while increasing agriculture, 
forestry yields. Conservation practices, carried out through 
USDA can produce significant benefits. But these tools need to 
be more sharply focused, and I think they can do so, and be a 
great tool.
    [The prepared statement of Mr. Noh can be found on page 106 
in the appendix.]
    Senator Crapo. Thank you very much, Senator Noh. I 
appreciate that.
    Mr. Mansfield?

STATEMENT OF TERRY MANSFIELD, DEPUTY DIRECTOR, IDAHO DEPARTMENT 
  OF FISH AND GAME, ON BEHALF OF THE ASSOCIATION OF FISH AND 
                WILDLIFE AGENCIES, BOISE, IDAHO

    Mr. Mansfield. Good morning, Senator Crapo. Thank you. My 
name is Terry Mansfield. I am Deputy Director with the Idaho 
Department Fish and Game.
    Thank you for the opportunity to testify on the 
conservation title provisions of the Farm Bill.
    From our perspective, there is no Federal program that 
delivers more funding on the western landscape for fish, 
wildlife and habitat conservation than the Farm Bill 
conservation provisions.
    They have played a key role for farmers and ranchers with 
financial incentives and technical tools to enhance the quality 
of soil, water and wildlife habitat.
    These programs work. They are very popular with the 
landowners because they are voluntary, incentive based and 
promote partnerships among agricultural producers, state and 
Federal Government agencies, particularly the wildlife 
agencies.
    Although I'm here today officially representing the Idaho 
Department of Fish and Game, my comments also reflect the 
interests of the Association of the Fish and Wildlife Agencies.
    I would like just by the way of background just bring 
things into focus. The Farm Bill's landscape scale programs 
benefit fish and wildlife habitat and help support the stat's 
roles and responsibilities to conserve and manage fish and 
wildlife.
    Consider the following accomplishments of the 2002 Farm 
Bill:
    128,000 acres of wetlands have been restored and;
    498,000 general signup CRP acres enrolled;
    69,000 acres of riparian buffers were established 
throughout the west.
    Similar benefits are occurring in Idaho. In recent years 
NRCS has been progressive in working with the Idaho Department 
of Fish and Game to implement the technical service provider 
program using Farm Bill conservation programs to deliver a wild 
range of valuable fish and wildlife habitat projects on private 
lands, including many that benefit at risk species.
    Some examples would include in 2005 the WHIP program 
focused on addressing native fish habitat concerns in the 
Tieton and Bear River drainages.
    A special EQIP program has been developed to assist 
landowners with at risk species projects.
    During the last 3 years, the Department of Fish and Game 
has entered into partnership with the NRCS, through the TSP 
program, where our personnel actually work at the NRCS offices 
and they've assisted 235 private landowners with 331 Farm Bill 
conservation practice requests.
    We appreciate the partnership with NRCS and efforts to 
improve fish and wildlife habitat in Idaho.
    Based on our experience, we think the net effectiveness of 
our cooperative efforts could be enhanced by refining some 
programs and eliminating a few practical barriers to completing 
approved projects.
    My written testimony includes more details but I would like 
to just touch on a few specific examples from improvement in 
Farm Bill conservation programs.
    Although the Technical Service Provider Program currently 
delivers cost-effective assistance to landowners, we believe 
another valuable benefit is the collaboration of local 
partnerships fostered among private landowners, state and 
Federal agencies.
    We recommend TSP program be continued in the 2007 Farm 
Bill, but we think there are some constraints dealing with the 
balance between funding and the procedures for technical 
assistance and financial assistance could come into balance. 
This would allow for more projects to be provided to landowners 
in a timely manner.
    In short, technical assistance is insufficient to implement 
financial assistance currently available and the demand for 
CRP, WRP, EQIP and WHIP is far greater than the current levels 
allow.
    Either an increase in technical assistance, or once again 
streamlining the administrator procedures in the balance would 
be helpful.
    Conservation Reserve Program provides many benefits to Fish 
and Wildlife in Idaho, including mule deer, Columbian sharp 
tail grouse. In Idaho, for example, sharp tail grouse annual 
harvest has increased three sold since the 1980's, based 
largely on enrollment of CRP lands.
    We also would like to have considered a national priority 
area involved in CRP wherein we could focus more attention on 
recovery of at risk species, such as Columbian sharp tail 
grouse.
    We also recommend there could be some modifications, 
refinements in the 25 percent county cap.
    Another concept worth consideration here in Idaho, although 
the Farm Bill programs are valuable tools to address fish 
habitat needs, they are currently underutilized. The national 
fish habitat initiative will incorporate Farm Bill conservation 
programs to restore and enhance fish habitat by expanding the 
use of the existing tools.
    This trend will likely increase landowner interest and 
demand for TSP.
    A new concept that we would like to have considered as well 
deals with open feeds. Public access to private land and across 
private land to public land is becoming more difficult for 
Idaho hunters and anglers.
    Reauthorizing the Farm Bill in 2007 should consider 
including voluntary landowner incentives to provide public 
access as an added benefit to the investment in these 
conservation programs.
    In conclusion, the Idaho Department of Fish and Game 
strongly supports reauthorizing the Farm Bill in 2007, 
including refinements and expansion of conservation programs as 
I have described.
    This national commitment to a balance--to balance the needs 
of agriculture with voluntary Fish and Wildlife conservation 
programs will continue to be of critical importance in 
assisting farmers and ranchers in Idaho and throughout the west 
to conserve soil, water, wildlife, and fisheries. Thank you, 
Senator.
    [The prepared statement of Mr. Mansfield can be found on 
page 99 in the appendix.]
    Senator Crapo. Thank you very much, Mr. Mansfield, and 
thank you to all of the panelists for your testimony today.
    Obviously this panel is focusing on the conservation title, 
whereas the previous one focused on the commodities title. But 
really we can discuss everything in the farm will that is there 
and what should be there in the future. So I would encourage 
you to engage with us on that.
    Mr. Hawley, the first question I have for you is, and in 
fact I will make this open to the entire panel, obviously we 
have a different budget climate than we had in 2002. In 2002 we 
were actually looking at very significant projected surpluses, 
and we were able to get major increases in conservation titled 
programs because of that. Which have resulted in a tremendous 
amount of good, as Mr. Mansfield has indicated, in terms of the 
actual implementation of these programs.
    Today we're looking at budget deficits. We are engaged in a 
war in Afghanistan, Iraq, and there are problems in the context 
of our national security, both here at home and as well as 
overseas that indicate that we're not going to be able to be 
reducing our national defense spending or our homeland security 
spending much at all, if at all. And that those budget 
pressures will increase.
    Given that, there will probably be a competition in the 
development of the Farm Bill, not only between the Farm Bill 
and other needs, like national security and so forth, but there 
will probably be competition within the titles of the Farm 
Bill.
    And so the question I have, and I know this is a tough one 
to answer, but it's one that we are going to have to answer and 
deal with in Washington, is as we approach the development of 
the budget allocation in the Farm Bill, is the current 
allocation between the commodity programs and the conservation 
title adequate, should we be adjusting it, should funding be 
moved from one direction to the other, or do we have the 
balance about right?
    I know it's not a fair or fun question, but do you want to 
start out, Mr. Hawley?
    Mr. Hawley. It is a very tough question, and I mentioned 
about an annual agricultural summit. And why I mentioned that 
is because it seems that we're living in a much more dynamic 
environment now than we were when we developed the 2002 Farm 
Bill.
    And these primary questions are very difficult to answer 
every 5 years. They need to be answered, or at least discussed, 
on an annual basis. Because the fuel prices have doubled in the 
last few years, we have a war, like you said, and other 
variables that are unpredictable, and influences the 
agricultural sector directly.
    And one thing that hasn't been brought up yet today that I 
think is something that needs to be discussed very strongly, is 
the fact that the new generation of agriculture interests, the 
young farmers and ranchers are not coming to the forefront. In 
some sectors, yes, they are there, but other sectors, obviously 
the farm economy is poor enough, that the children aren't 
interested in coming back to the farm.
    And what does that mean 20 years down the road from now? 
And these issues need to be all incorporated into a massive 
discussion so we could have appropriate answers coming forth 
for funding.
    Is it important to have funding available to enhance the--
or be an incentive for the children to come back to the farm, 
or anyone to invest in the farming operation?
    If not, we're going to go to huge corporate farms, and how 
would conservation programs, would they be effective, and would 
they be interested, would they be of interest to corporations?
    I know I'm not answering your question at all.
    Senator Crapo. Well, you're pounding around the edges.
    Mr. Hawley. But I think the bottom line is, that the 
American farmer has to have a fair system globally to sell his 
commodities, he has to be assured of a future, because as I 
mentioned earlier, it's hard to sell conservation when a 
farmer's livelihood is at risk.
    Senator Crapo. Thank you. Anybody else want to jump in on 
that? Mr. Mansfield?
    Mr. Mansfield. Mr. Chairman, if I could, please, just two 
thoughts.
    One of them, regardless of the balance of the mix of the 
total funding package, I think we owe it to everybody to be 
cost-effective and efficient.
    And my comments and the Association of Fish and Wildlife 
Agencies' comments, technical service provider program. I think 
there are some barriers involved, administrative barriers. And 
whatever the funding level, the balance, between technical 
assistance and the financial assistance I think could be 
improved. So, the net cost-effectiveness, regardless of the mix 
between commodity and conservation, I think that could be a 
focus, and we certainly see some room for improvement.
    The other emphasis that I have tried to include in my 
comments, is pay me now or pay me later. You have certainly led 
the way on the thinking relative to species at risk before it 
becomes too late, before the less flexible government 
intervention with listed species takes place.
    So, I think once again that collaboration, that voluntary 
relationship, but net costs end up much lower and much more 
effectively focused if we could get ahead of the mix. And I 
think some of the refinements we can make internally will help.
    Mr. Knight. I think, Senator, part of the answer to your 
question is that the Farm Bill, it needs to be comprehensive, 
and it needs to recognize that our country is really in 
transition, especially out west, to where the Farm Bill 
provides tools that are necessary not just on the commodities 
side but there is a value that the public puts on the natural 
resources. The public is interested enough and obviously 
Congress has been interested enough in natural resources, that 
they will a lot of times put requirements on landowners. And 
those things aren't cheap.
    If the public wants to have wildlife and they want to have 
clean water and they want to have clean air, it's fine if they 
say, we demand that this happen.
    But certainly in the case of our members that have 
utilized, say, EQIP funding, it's really an issue of the public 
putting a list of demands in front of landowners, saying, we 
want this, and the landowners saying, you know, we need help 
with that.
    You can't put, you know, technical and capital intensive 
demands on landowners to maintain the status of natural 
resources that they have, without giving them some assistance 
along the way.
    It is really kind of helping meet that public interest and 
that public commitment half way.
    So, certainly while you don't want to be put in the 
position where, as I think the gentleman from the grain 
producers in the previous panel said, you know, we don't want 
those monies to compete directly with commodity monies. We 
don't want them coming out of each other's pots. We know to 
some extent in D.C. that's to go to happen, but I think 
certainly farm policy in the country has to recognize that 
there's a balance there.
    And that assistance is necessary because that is something 
that has been imposed upon our members, some of those different 
requirements, and we need that assistance. And especially with 
a changing landscape out west. I mean, we want this to be a 
working landscape, as Senator Noh referenced, we want this to 
be a landscape where you have working farms and ranches, and in 
order for that to happen, we need help ensuring that these 
operations can meet those obligations. And that conservation 
funding is essential to that.
    Senator Crapo. Thank you. Senator Noh?
    Mr. Noh. Mr. Senator, I will have to be a little bit 
careful speaking for a national organization. I don't want to 
misrepresent their policies. But maybe a couple thoughts.
    One, following up on Mr. Knight's observation. Scattered 
developments across our western rangelands, it doesn't appear 
to be good national policy, whether it's oil policy, energy 
policy, or whatever the case may be, and that's where some of 
these programs really do come to bear.
    We also think it is important to focus and target these 
limited funds where they will do the most good.
    For example, our organization has thought it would be 
useful to have an enhancement component to the GRP program 
similar to that of the conservation and reserve, CREP Program, 
so that cooperative state and other funds could be targeted, 
for instance, at sage grouse problems, because none of us are 
going to benefit if some of those species end up on the list, 
and then I guess we will have a need for more graduates from 
this great institution right here.
    And then there is an equity component. One of the concerns 
of the Conservancy under the GRP program which has lots 
potential, is that as I understand the way it now works with a 
regional component, is the states of Rhode Island and New 
Hampshire, which together represent a land area the size of 
Owyhee and Elmore Counties, receive more funding than the 
entire state of Idaho.
    So that's another example of maybe an area, without getting 
into these allocation warfares, where we might benefit some of 
the western goals.
    Senator Crapo. I appreciate that, all of the comments that 
you have made there.
    Let me ask another unfair and tough question in this same 
line of thinking. And that is, once we do get a budget worked 
out for the Farm Bill and we figure out how much is going to be 
in the commodity title and allocated among the various titles, 
within the conservation title we are going to have some 
competition.
    As we've already heard today, the CSP program is seriously 
underfunded. The CSP program is the new kid on the block, so to 
speak. The other programs that we have had, like EQIP, and CRP, 
WHIP and so forth, have been there longer, are more 
established, what I would call the traditional, established 
conservation titled programs from the Farm Bill.
    And in the last Farm Bill development, we basically made a 
decision that they would be protected and we would try to add 
CSP in on top. Which is one of the reasons that we were unable 
to fund CSP fully. If we would have put CSP in and funded it 
first, then we would have had to bump out some of the other 
traditional programs.
    And again in the last Farm Bill we kind of got past this 
problem because we were flesh with money, and we were able to 
fully fund, or do what we thought was adequate for the 
traditional conservation program. And add in the CSP program, 
and give it a healthy amount of funding to see if we could get 
it started. And it was sort of done in a way that we were going 
to do it and see where we needed to go with it, once we got it 
going.
    Now we have, what, 4 years of experience moving down that 
track, and we see that there are some serious inequities with 
the way that the CSP program is being implemented.
    We also see that it actually is a very helpful program and 
accomplishing a lot of the intended objectives.
    But there's going to be that competition again, as we come 
to a budget sensitive Farm Bill in the future, budget sensitive 
conservation title, between various programs.
    And the question I am leading up to is, do we make the same 
decision again, namely, do we protect the traditional programs 
at their current levels of funding, and then see what we can do 
in terms of budget to get more money into the CSP program, or 
do we start winnowing down the existing programs and moving our 
prioritization into the CSP program.
    Anybody want to tackle that one?
    Mr. Knight. Senator, I think from our perspective, I think 
you need to prioritize those programs that do the most 
environmental good. Do the most environmental good.
    For us, the traditional programs have always again been 
programs that helped get a lot of new work done on the ground 
that hadn't been done before.
    For example, if an operator saw a need, if it would help 
the water quality in his area, to help move some pens off of a 
creek, for example, or to put in some different water sites, 
some of those things, utilize EQIP funding and technical 
service from NRCS to do that, you know, to us that is a greater 
priority because that is a realized benefit to the environment, 
to the resource today that wasn't there before.
    So, to us that's more of a priority because he's doing that 
for a number of reasons. Not only to be a good steward, but 
also because there are probably some regulatory obligations 
there that he needs to meet.
    So, from our perspective, those kinds of programs probably 
provide, and those kind of projects, to us are higher priority 
to our members. Not to say those other programs aren't 
beneficial. Not to say they sometimes don't accomplish the same 
thing. But somehow maybe there needs to be a way to build into 
the program a way to prioritize funding toward those things 
that meet some of those obligations.
    Senator Crapo. Thank you.
    Mr. Mansfield?
    Mr. Mansfield. Mr. Chairman, just a couple of thoughts, and 
one of them would be, you know, look at the landscape level 
effects and so on, and certainly the Conservation Reserve 
Program, CRP, and WRP, not only in the West but nationally, 
have accomplished some major goals. They've provided vehicles 
by which nongovernment organizations involved in conservation 
would be very effective in bringing private side dollars in. 
They've meshed some partnerships between state and Federal 
agencies, Federal agencies on the Department of Agriculture 
side and the Interior side. And they rolled toward the 
implementing the North American waterfowl goals and things of 
that nature.
    So, I guess, you know, just some thoughts would be, couple 
that with the proven effectiveness, landscape level effects. 
But also the momentum of people being used to working in those 
partnerships. I think several of the commodity interest folks 
talked about longer term visions and continuity.
    I think it would be hard to argue against looking at the 
long-term continuity, in some cases in CRP, it's getting people 
acquainted and comfortable, and then rolling it forward.
    The old rule of business, take care of your current 
customers well, make refinements, adapt as you go.
    So those are certainly some thoughts that as you face a 
really hard choice of prioritization and creating new ones, I 
think then if we also focus, can we be innovative, can we use 
some of these existing tools in a little broader fashion. Fish 
habitat and some water quality issues, current tools can do it. 
And I just think that may be at least something to consider as 
you look at those hard choices.
    Senator Crapo. Thank you. Anybody else want to jump on that 
one?
    Mr. Noh. Well, jumping on it is not really the right----
    Mr. Knight. Backing into it?
    Mr. Noh. Yeah. Easing into it. It's my understanding that 
the Nature Conservancy has not drawn any conclusions on the CSP 
program. Kind of adopting a wait and see attitude, since it's 
new.
    But this seems to me that it makes sense that we do have 
proven programs, and particularly as we look at the western 
landscapes and the grazing landscapes, that they are not 
uniform.
    We do need a diversity of tools, and we have had experience 
with a number of them. And we need to look for ways of 
strengthening those programs, perhaps modifying some of them, 
and look for ways again that in the long-term we'll keep good 
working farmers and ranchers on the land that's good, long-term 
policy for all of us.
    Senator Crapo. Thank you. I note, Mr. Hawley, in your 
testimony you indicated that if the CSP program--excuse me, if 
the CSP program continued but in a seriously underfunded 
fashion, that you had some suggestions there.
    Could you elaborate a little bit on what your ideas were 
there, as to how we could do this better, assuming we're not 
going to have an ample amount of money to simply solve it with 
dollars?
    Mr. Hawley. Right. The suggestions were based on shifting a 
lot of the responsibility for management to the state level.
    That way the state could develop its own priorities for the 
CSP and the inequitability, or the inequities that are 
currently being faced, would be managed out toward the state's 
priorities for certain watersheds. We think it would be 
associated with managing special CRP areas. Just give the 
states a lot more flexibility.
    Right now it is being managed mostly from the national 
level. Sometimes the watersheds that maybe are the highest 
priority aren't necessarily selected because of the adjoining 
state's influence.
    For example, in Idaho, on the western side of Idaho, we 
have a lot of collaboration with Washington and Oregon, and 
they may have a high priority watershed, and Idaho may not, or 
vice versa. And I think we could also build confidence that 
more locally driven decisions would be made instead of at the 
national level. I'm not trying to bad mouth, you know----
    Senator Crapo. I agree with you, that it's better at the 
local level.
    Mr. Hawley. So that's the crux of the issue. And we're just 
concerned that at the current funding rate of CSP, that these 
inequities are going to become worse and worse and possibly end 
up destroying the program altogether.
    There are many producers that are very angry over how it's 
been administered so far.
    Senator Crapo. That's true. Anybody else want to say 
anything on the CSP program before I move on?
    Let me move to the technical service provider issue, and 
Mr. Hawley and Mr. Mansfield, you both mentioned this in your 
testimony, so I may focus on you here. But Senator Noh and Mr. 
Knight, don't hesitate to jump in if you have opinions on this.
    You may be aware, I held a hearing on this, in this 
subcommittee, in Washington, D.C., just a couple weeks ago, and 
we reviewed the whole TSP process, and how it was working and 
so forth.
    And the general consensus of the testimony that we received 
that day was that the TSP provisions were very helpful, but 
that we could improve, again, and there were some areas of 
suggested improvement.
    And I think that that would be consistent, that's what I 
heard both from you, Mr. Mansfield, and from you, Mr. Hawley, 
today as well, that it's a good program, but I also detected 
that there are some ways that we could improve it.
    So, would you both be willing to elaborate a little bit on 
what you would think we ought to do with regard to the TSP 
program?
    Do you want to start, Mr. Mansfield.
    Mr. Mansfield. Senator, I would be happy to try and fill in 
a little more, and it is based on some experience.
    As you well know, for commitments to be made here by, say, 
Idaho Department of Fish and Game, and our colleagues in other 
states and so on, scarce positions, if you will, and so on, and 
resources within the state agency.
    Although we can accomplish our goals together, to have that 
work in some streamline fashion, we look at removing any 
administrative barriers, and whether they meet the actual 
funding allocation, the funds set aside and the procedures for 
funding technical assistance, be it a partnership with a state 
wildlife agency, or be it getting the archeological surveys 
done, declare a project on a weapon restoration project, there 
could be some focus on cleaning those things up. And once again 
maybe there needs to be a little more flexibility in regions or 
states to do it.
    Certainly we have found in our NRCS to be more than 
innovative within the constrains of the hard wired, broad brush 
approach nationally, for example. And so I think that would be 
an area in which to step it down gives some state authority to 
make those arrangements.
    Once again, if there could be some continuity, multi-year 
agreements or funding to the degree we could, makes it much 
easier for a state agency like the Idaho Department of Fish and 
Game, to commit resources to build continuity.
    As it is now, we are putting three positions right in the 
NRCS offices, and it's hard to describe the intangible benefits 
associated with improving our relationship with private 
landowners, making the Federal Government's program more 
effective.
    And quite frankly, we can bring the expertise to help 
address the practical incentives on landowners' projects, 
that's our expertise, and we can bring it to bear in an 
effective way.
    Senator Crapo. Well, thank you. And in fact I think that 
Idaho and one other state are sort of leading the way in terms 
of these partnerships, and it looks like we are doing it well 
and doing it right. And that issue of continuity of contracting 
is one that came up in Washington when we held the hearing 
there, too. So we are going to try to solve that problem.
    Mr. Hawley, did you want to add anything?
    Mr. Hawley. Well, I was just going to agree with Mr. 
Mansfield, that the program has in a way opened up that 
relationship between agencies to some degree. And I think 
that's a huge benefit to have agencies cooperate and learn from 
one another and developing strategic plans for the future.
    The TSP program was kind of slow to start out with, but as 
we have learned to refine it in our own minds, it's become a 
very beneficial program.
    I know, for example, in status reviews of CRPs, there have 
been some TSP services used here locally, and it's worked out 
real well.
    So, I don't know specifically what changes we need to make. 
They'd be maybe small. And I think as we move along, we could 
produce those new ideas for change.
    Senator Crapo. Thank you. And now to move a little bit more 
to Senator Noh and Senator Knight on the grazing issues.
    Senator Noh, I noted with appreciation the objectives that 
you talked about in terms of the Nature Conservancy's 
objectives, of wanting to keep ranchers ranching and to reward 
good stewardship.
    I think that that is a very good approach to the general 
policy, in terms of stating that the overall objectives that we 
want to achieve in this context.
    In the category of keeping ranchers ranching, you had 
talked about the need for increased funding for the GRP, the 
FRPP and the WRP programs for the ranching community, and also 
the need under rewarding good stewardship, to focus on 
incentives in funding to address the basic species.
    I was wondering if you could address that in just a little 
more detail, in terms of how you think we might approach that 
with regard to the invasive species, and the other aspects, of 
rewarding good stewardship on the land.
    Mr. Noh. Well, Mr. Chairman, invasive species we know are 
extremely difficult. I had dinner with my daughter last night 
in a restaurant in the mall over here, and one of their 
featured dishes was something comprised of yellow star thistle 
honey. So, we can eat them.
    Senator Crapo. So what did you order?
    Mr. Noh. But the key, it is such a big program, but the key 
obviously I think is to again target, to try to get out in 
front of the problems, educate the public.
    You know, I know there were difficulties here in the North 
Idaho lakes with mill soil, where people without an adequate 
knowledge base were unwilling to use the herbicides, and so you 
go out into the lake and pull these things, and sometimes it 
multiplies by fragmentations.
    So there has to be a strong education come along, to try 
get out in front of it. It takes lots of resources. I don't 
have any magic ideas.
    In terms of stewardship, again I think flexibility is 
important. For instance, as ranchers move into improved grazing 
management programs, it often requires, and this isn't the 
Conservancy position, this is my personal experience, it's 
often important, you know, to rest a particular component of 
the grazing regime for one or 2 years.
    Sometimes to be able to do that, it requires some water 
developments, perhaps some fencing, perhaps a controlled burn 
situation to enhance the forage and the forage diversity on the 
rested piece of property.
    So, those are the kinds of fundings that need to be 
available to assist the ranchers as they get into improved 
grazing programs to increase their stewardship.
    And it's ideal again if these things can be carried out on 
a cooperative basis, where you have got the agencies and the 
ranchers and others working together, very much as with your 
leadership appears to be developing out in the Owyhee, which 
used to be one of the tougher areas of the state to get 
cooperation.
    So, those are the kinds of programs that I think could go a 
long ways toward enhancing stewardship.
    Senator Crapo. Thank you.
    Mr. Knight, do you want to add anything in on that?
    Mr. Knight. Don't say ``used to.'' I think it still is.
    I think Senator Noh I think was completely accurate. I 
mean, the flexibility and the ability to work in those 
cooperative efforts I think is important.
    We especially see, with our members, for example, that have 
been involved in local working groups related to sage grouse, 
where there are a lot of folks from, you know, different 
agencies, landowners, and other interested groups around that 
table, you know, as they identify some priorities for those 
kinds of efforts, it's helpful to have some funding and 
flexibility available so that if somebody wants to, for 
example, and your example was very appropriate, water 
development, and fencing, and some of those things, riparian 
protection, those are things that cost money, as well, and 
having that ability to get some assistance with those projects, 
can get on the ground and running quickly, is very important. 
And so----
    And it helps to keep those working ranches out there. I 
mean, one of the things--I mean, obviously, especially in 
Idaho, one of the things that's the biggest challenge to our 
operators, is, you know, when you look, just like any 
agricultural producer, but when if you look at some of these 
things that folks want to you do, and the costs associated with 
it, the last thing we want are the condos to replace the cows 
on the private lands, you know, out there in some of these 
areas, and a lot of our operators are in areas that are very 
popular to folks moving into the state.
    And when you look at our operators that are in places like 
Custer County, and Lemhigh County, and some of those, they need 
some assistance in helping make some of these projects a 
reality so they can stay viable. It is very important.
    Senator Crapo. Thank you. Again, Mr. Knight, from your 
testimony I assumed, but I want to be clear on this with you, 
that in terms of the conservation programs, the Cattle 
Association would probably rate EQIP as one of the highest, is 
that fair?
    Mr. Knight. I think so, Senator. I mean, I think it's 
probably the program that our members have utilized the most, 
and so that's--if I rate it in the order of importance, it's 
because I know it's the one that they seem to be most familiar 
with.
    I mean, we've had operators in, say, the Lemhigh drainage 
that have utilized some CSP and some of that. But EQIP I think 
is really our primary program.
    Senator Crapo. How has the GRP program been received?
    Mr. Knight. You know, I haven't heard from my members a lot 
about GRP, quite honestly. And that is not to say it hasn't 
been received well. We just haven't had a lot of discussion 
about GRP here.
    Senator Crapo. Well, it hasn't had the funding it needed, 
for one thing.
    Mr. Knight. Well, yeah. And I would probably defer, just 
because of my lack of knowledge, rather than try to amaze you 
with my ability to make up an answer, I would prefer to have 
Stacy contact the folks in D.C. at NCA.
    Senator Crapo. That's always a fair option.
    Mr. Knight. I try to be as fair as I can.
    Senator Crapo. Senator Noh, what are your observations on 
how the GRP program has played out so far?
    Mr. Noh. Well, Mr. Chairman, again I think, as I emphasized 
in my testimony, it is a good program. Again, it is the old 
story, there is a huge demand, and probably one of the reasons 
why many of the producers aren't familiar with it, is because 
they have had no opportunity to be exposed to it.
    I think I gave an example in my testimony, in Idaho where a 
very high ranking program in the Henrys Lake area, 2 years in a 
row, it didn't make the cut, even though it was No. 5 out of 
130 applicants.
    Senator Crapo. Because there wasn't enough money?
    Mr. Noh. Because there wasn't funding. And part of that I 
suspect is this regional allocation and the way the monies are 
distributed over the nation, in terms of penalizing the large 
landscape areas in the West.
    Senator Crapo. All right. Well, thank you. I have a lot 
more questions, but that pretty much, we are pretty much 
running out of our time for this panel.
    I want to say again, as I have said many times, how 
appreciative we are of the thoughtful analysis that has been 
provided by you, both in your written and in your oral 
testimony, and encourage you to continue to provide it to us.
    I believe that the Farm Bill and the policies that we will 
address in it or so far reaching, they go--they are literally 
going to have international consequences as well as 
consequences that we are all aware of in terms of 
environmental, commodity impacts and so forth. We've got to get 
it right.
    And so I appreciate your help in working on that, and 
encourage you to continue to do so. With that, we will excuse 
this panel. Thank you very much.
    We will now invite up our third panel. While they were 
coming up, I will introduce them.
    Our third panel consists of Dr. Gregory Bohach, Associate 
Dean of the College of Agriculture and Life Science at the 
University of Idaho, here in Moscow; Ms. Lorraine Roach, a 
Board member of Idaho Rural Partnership, from Grangeville; Ms. 
Christine Frei, Executive Director of the Clearwater Economic 
Development Association from Lewiston; and Mr. Roger Simon, the 
Executive Director of the Idaho Food Bank from Boise.
    We welcome all of you here with us. And as I have said to 
everyone else, we thank you not only for your attendance but 
the amount of work and effort that you have put in to give us 
your counsel and guidance on these issues. And we will have you 
go in the order that I have introduced you.
    So, Mr. Bohach, please proceed.

    STATEMENT OF GREGORY BOHACH, ASSOCIATE DEAN COLLEGE OF 
 AGRICULTURAL AND LIFE SCIENCES, UNIVERSITY OF IDAHO, MOSCOW, 
                             IDAHO

    Mr. Bohach. Good morning, Senator Crapo. I want to thank 
you and your staff for the opportunity to present in these 
proceedings, and for you listening today as you have always in 
the past. Thank you very much.
    Senator Crapo. Thank you.
    Mr. Bohach. I'm here to talk about research funding at the 
University of Idaho and other land-grant universities across 
the United States.
    As Associate Dean, my responsibility is mainly the 
experiment station director. So I'm responsible for 
facilitating land-grant research at the university.
    I want to start off by saying that I have listened to the 
testimony of some of the grower groups earlier this morning, 
the grain producers, the pulse crop producers, potato growers, 
and the dairy and beef growers, raisers, and they talked about 
the research cooperation, the support with the University of 
Idaho.
    I just want to mention that the programs that they 
mentioned for the Farm Bill related to research, we are 
strongly behind. We are particularly excited about the dairy 
and beef research facility proposed for southern Idaho. We just 
met with the dairy producers last week, started working out a 
business plan. I think the potential is there for the dairy 
industry and the beef industry, especially in relation to the 
environmental stewardship. I think it's enormous.
    I want to start off, though, by saying that I want to spend 
most of my time talking about a situation with research funding 
and hope that some revisions can be made in the Farm Bill to 
address that.
    I will put on one of my minor hats at the University of 
Idaho, and that is a researcher. I do research in infectious 
diseases, mostly related to human infectious diseases which has 
been funded largely by NIH, and I also work on animal 
infectious diseases, mostly bovine mastitis, which has been 
funded by the USDA and the United Dairymen of Idaho, and also 
probably most importantly, by cash formula funds, and probably 
most importantly by Hatch formula funds, because thinking about 
it, without the Hatch formula funds, my research program would 
probably not be viable, and I doubt that I would even have a 
job here at the University of Idaho.
    I just did some calculations this week. It takes about a 
half a million dollars a year to run my research program. And 
of that, half a million dollars, 25,000--20 to $25,000 on the 
average has been provided by Hatch dollars. So, the state of 
Idaho is able to leverage those Hatch dollars by at least 16 to 
one in Federal competitive grant dollars. That is important 
point to keep in mind.
    I want to start off by setting the stage here, I need to 
watch the time I know, three key features to keep in mind.
    Despite the fact that since 1997 Federal funds for NIH and 
NSF have increased by 10 billion and $875 million respectively, 
in fact the NIF budget as you know, has doubled, we are 
strongly supportive of that.
    Adjusted for inflation, agricultural research dollars for 
the university experiment stations have actually declined by 24 
million dollars. And extension dollars have actually declined 
even greater than that.
    Second, there has been a movement by the current 
administration, as you know, to remove formula funds for 
research. Several models have been proposed which differ in the 
rates at which the funds are eliminated. Either rapidly or more 
gradually.
    And third, there is currently no dedicated Federal research 
institute to advocate for and/or administer agricultural 
research funds. Food, agricultural and natural resource 
programs currently are divided among the ARS, CSREES and the 
Forest Service.
    The result is we believe that there is frequent duplication 
among agencies, no clearly defined lead agencies to address 
critical national issues, and a lack of integration across 
agencies.
    And I participated in a subcommittee of the Western 
Agriculture Experiment Station Directors, and we came up with a 
policy statement which I presented in my written testimony, but 
I just wanted to touch on a couple of quick components of that.
    I think that we want to have a functional combination of 
both formula and competitive funds in order for the system to 
work. Both Federal--Both formula and competitive funds have 
their advantages and disadvantages, and those are outlined very 
thoroughly in the written report that I provided.
    I wanted to wrap up by saying that what we would propose 
for the Farm Bill, and this is based upon a committee called 
CREATE-21, creating research extension and teaching excellence 
for the 21st Century, which was commissioned by the NASULGC 
group, the National Association of Land-Grant Universities.
    And basically there were several components. I will go over 
these briefly.
    We would propose the creation of an institute that controls 
and regulates research funding, administers research funding, 
specifically for agriculture. The Research Fund Institute would 
be headed by a director, an eminent scientist, nominated by the 
President and confirmed by the Senate for a 6-year appointment.
    We also propose doubling of funding within 7 years from the 
current $2.7 billion per year to $5.4 million per year, and the 
major components are, that the formula fund distribution would 
remained intact, but the add-on dollars would go largely to a 
competitive program. Thank you.
    [The prepared statement of Mr. Bohach can be found on page 
61 in the appendix.]
    Senator Crapo. Thank you very much, Dr. Bohach.
    Ms. Roach?
    Ms. Roach. Well, I'm used to the university folks talking 
in 50 minutes increments.
    Senator Crapo. He had to cram a lot into his 5 minutes.

    STATEMENT OF LORRAINE ROACH, BOARD MEMBER, IDAHO RURAL 
                PARTNERSHIP, GRANGEVILLE, IDAHO

    Ms. Roach. Chairman Crapo, thank you very much for inviting 
the Idaho Rural Partnership for participate in this panel.
    For the record, my name is Lorraine Roach, and I'm a member 
and a past Chairman of the Idaho Rural Partnership Board. I 
also serve with Dr. Bohach on the Dean's Advisory Board for the 
College of Ag. and Life Sciences here at the University.
    Senator Crapo. Am I pronouncing your name wrong? Is it 
Bohach?
    Mr. Bohach. That's the way my grandparents pronounce it.
    Senator Crapo. Mine gets pronounced wrong a lot, too.
    I'm sorry, Ms. Roach. You can go ahead. You can add 20 
seconds because I interrupted you.
    Ms. Roach. One of the key reasons we're here today is 
because we're all challenged to do more with less.
    And I guess I would like to share three key thoughts with 
you today as part of my presentation.
    I'm a private business owner, and like businesses in 
today's world, government agencies have to collaborate with 
each other and with their stakeholders in order to maximize 
their effectiveness and leverage their limited resources.
    Second, that this type of collaboration, coordination and 
leveraging is absolutely critical in rural community 
development because the resources are even more limited there 
than they are in urban areas.
    And third, that the National Rural Development Partnership, 
or NRDP, which includes the State Rural Development Council, is 
an effective and efficient way to foster this interagency 
collaboration and that the NRDP should be reauthorized in the 
2007 Farm Bill.
    In this book, The World is Flat, by Thomas Friedman, which 
I know you are familiar with----
    Senator Crapo. I have read it.
    Ms. Roach [continuing]. He describes that technology and 
global communication systems are now enabling businesses to 
collaborate and work in real time across national borders and 
continents. He says that traditional command and control 
hierarchical ways must open up to a new horizontal connect and 
collaborative style.
    But his observation doesn't justify the business survival 
in the global economy, the same factors that are changing 
business relationships also affect government.
    In 1990 the President's Initiative on Rural America created 
what later became the National Rural Development Partnership, 
which is a working group of Federal agency representatives and 
a network of 40 State Rural Development Councils administered 
through the USDA.
    The purpose of the NRDP was to reduce barriers to rural 
development through collaboration and communication among 
Federal agencies and with their state, local, tribal, private 
and nonprofit stakeholders. The Idaho Rural Partnership, or 
IRP, is the state council in Idaho.
    As a business owner who lives in rural Idaho and who works 
in rural communities across the U.S., I volunteer as an IRP 
board member because I have seen this concept of collaborative 
problem solving truly work for rural communities.
    The NRDP model of connection and collaboration was frankly 
a pretty novel idea 16 years ago when it was begun, but it is 
an essential and cost-effective way to get things done today. 
It provides a way to maximize the efficiency of every single 
dollar that is spent to aid rural communities and residents and 
farmers and ranchers.
    Let me share just a couple examples of how the partnership 
solves problems and reduces regulatory barriers.
    The State Rural Development Councils have initiated a 
process called rural community assessment, or in some states 
rural community reviews or community resource teams. This 
process allows the community to invite a team of experts to 
spend several intense days helping them find ways to address 
their community's most difficult challenges.
    The visiting resource team is a volunteer group of Federal, 
state and private experts selected specifically to provide 
technical expertise and resources that that community needs.
    Frankly, the results from this process have been 
astounding. The communities have come together, agreed on 
solutions, and then effectively tapped Federal, state and local 
resources to address their problems. In other words, this 
process helps communities to help themselves.
    In the past farmers and ranchers were required to submit 
multiple conservation plans to various state and Federal 
agencies. The Idaho Rural Partnership convened a task of the 
different agencies and worked with them to develop a single on-
line planning format. This program, called the Idaho One Plan, 
won a national award and is now being implemented across the 
United States, and there are more details about that attached 
to my printed remarks.
    Other rural issues present the same types of regulatory 
challenges, from wastewater to health care, transportation, 
housing, business development, etc.
    The state councils can help find solutions through 
collaborative partnerships, ultimately benefiting thousands of 
communities and millions of rural citizens and businesses 
across the nation.
    There are dozens of Federal, state, local, private and 
tribal organizations involved in rural development work. 
Certainly there's plenty of need. Enough to keep all of us 
busy. But these entities often don't coordinate with each other 
and leverage the resources as much as they could.
    So the State Rural Development Councils, like IRP, provide 
a forum for them to come together, connect, identify 
opportunities to collaborate.
    This is a win-win situation for the Federal Government, for 
the state council partner organizations, and most importantly, 
for rural communities and businesses.
    The NRDP was authorized in the 2002 Farm Bill, and I 
strongly encourage your support of its reauthorization in the 
2007 Farm Bill. Rural communities need this collaboration model 
now more than ever, and the comparatively low cost of the 
partnership reached a huge return on investment for the Federal 
Government and American taxpayers. Thank you.
    [The prepared statement of Ms. Roach can be found on page 
124 in the appendix.]
    Senator Crapo. Thank you very much, Ms. Roach.
    Ms. Frei?

  STATEMENT OF CHRISTINE FREI, EXECUTIVE DIRECTOR, CLEARWATER 
       ECONOMIC DEVELOPMENT ASSOCIATION, LEWISTON, IDAHO

    Ms. Frei. Good morning. On behalf of the Clearwater 
Economic Development Association, thank you for the opportunity 
to address the Federal farm policy.
    Dedicated to the economic and community vitality of North 
Central Idaho, CEDA provides Region 2 counties and communities 
with project development, grant management and project 
implementation assistance, and reaching businesses with startup 
and small business financing.
    CEDA recognizes that our region's resource-based economy, 
driven primarily by agriculture and timber, is highly 
influenced by government policy that drives forestry, 
conservation and rural revitalization.
    Today my comments will be specifically focused on USDA 
rural development programs and services, and their benefits to 
our region.
    The intermediary relending program provides financing for 
business startup and expansion projects that create jobs in 
rural communities; contribute to the diversification and 
expansion of the local economy; and/or provide business 
ownership opportunities to traditionally undisturbed population 
groups.
    The $650,000 IRP loan to CEDA in 1998, for example, has 
resulted in $1.4 million of CEDA financing for 27 rural 
business development projects. This financing leveraged an 
additional $2.6 million of investment into the same projects, 
and helped to create and/or retain 154 jobs in rural North 
Central Idaho.
    The rural business international grant program funded a 
feasibility study that helped a major Clearwater County 
employer retain over 40 manufacturing positions with decent 
wage opportunities.
    In the past 5 years with RBEG funds CEDA provided 12 micro-
loans for business startup and expansion projects. These 
projects helped to create 18 jobs in economically distressed 
rural communities.
    The Rural Business Opportunities Grant assisted eight small 
rural producers in their assessment of new product markets and 
the development of strategies for penetrating those markets, 
resulting in nine retained or created jobs.
    RPEG funding also provided for a regional tele-
communication study that assessed the infrastructure of the 
most under-served rural communities. This study will be used to 
prioritize regional actions to address tele-communication 
shortfalls.
    The interest that this study generated contributed to the 
recent action by the Idaho State legislature to set aside and 
distribute money for telecommunication infrastructure.
    Since 2001 the USDA rural development awarded over $2 
million in grant and loans for community projects such as fire 
stations, emergency service equipment, library renovations, and 
school improvement projects in our region.
    Since 2002 $10 million in loans and $6.82 million in grants 
were also awarded in the region for water and sewer 
infrastructure and solid waste management projects.
    In the past 5 years CEDA worked diligently with eight 
communities on community facility and community program 
projects that were financially made feasible because of the 
loan and grant programs of the USDA rural development.
    Currently CEDA is working on three more projects that will 
be seeking rural development funding. One of the most 
financially challenging projects has been with the city of 
Lapwai and the Nez Perce Tribe on a collaborative project to 
construct a regional wastewater treatment plant.
    It is important for those who develop the Federal farm 
policy to understand the funding needs of our region.
    Looking over CEDA's 5 year history with rural development 
funded projects, we estimate that fewer than one-third of the 
projects would have been completed without USDA grant and loan 
assistance. Grants for water and sewer projects in particular 
are critical to keeping the utility rates in a $35 per month 
range that is affordable to low income people.
    In addition to its grant and loan programs, rural 
development provides valuable technical assistance to 
communities in the areas of rate structuring, financial 
packaging and budgeting for capital replacement.
    The most difficult community projects to complete in our 
region are fire stations and emergency response facilities and 
projects. As more people move into the urban areas, adequate 
and accessible fire protection and emergency response is more 
critical.
    In the past year CEDA has interacted with as many as eight 
fire districts in the need of funding for facility projects. 
R.D. programs could be improved with increased grant funds and 
a program that allows for grant only assistance.
    This is the first time in CEDA's history that our 
organization has been directly involved in addressing housing 
issues. As property values continue to escalate, the need for 
USDA rural development housing programs such as mutual self-
help programs become more imperative.
    In conclusion, I cannot emphasize enough the need for the 
existing USDA rural development programs and the hopes CEDA has 
that the programs receive adequate funding. Infrastructure, the 
No. 1 obstacle to economic development. Small business 
opportunity and financing is the other. Thank you.
    [The prepared statement of Ms. Frei can be found on page 82 
in the appendix.]
    Senator Crapo. Thank you very much.
    Mr. Simon.

 STATEMENT OF ROGER SIMON, EXECUTIVE DIRECTOR, THE IDAHO FOOD 
                       BANK, BOISE, IDAHO

    Mr. Simon. Good morning, Senator, Chairman. I don't think 
you and I have ever been in a situation where we have been 
dressed the same. I wear the tie----
    Senator Crapo. We'll work at it. Let's put it this way. I'm 
going to be in jeans, if I can.
    Mr. Simon. I understand, sir. My name, as you know, is 
Roger Simon. I'm Executive Director of the Idaho Food Bank, the 
premier hunger relief agency serving Idaho and Idahoans in 
need.
    I have served in this capacity for 13 years and have been 
actively administering nonprofit corporations for more than 30 
years.
    The Farm Bill is thought of by many as the cornerstone of 
service for our farmers, whether they be large or small. 
However, it is much more than that. The Farm Bill keeps grocers 
throughout Madison County in business. That being the home of 
BYU Idaho, and one of our top counties in the country in terms 
of the production of potatoes. Also, though, 17 percent of 
residents of Madison County live in poverty.
    In Shoshone County, retail is our largest industry, and yet 
one out of every four children there live in poverty.
    The Farm Bill, the provider of food stamps, is an essential 
solution there.
    Whether we want to admit it or not, the Federal Government 
is the largest supplier of food assistance in our country. And 
yet hunger in America, hunger in Idaho is much more serious 
than it has ever been.
    Families seek emergency food sources when they do not have 
enough money to purchase the food that they need and other 
basic needs.
    The quality of the food that is purchased is directly 
related to the funds that are available. So, what you have is 
the odd situation of people threatened with hunger and 
concurrently suffering from obesity.
    Without support such as available through the Farm Bill, 
the very high fat items will continue to be what's available. 
And we as a society will continue to pay more and more as a 
result of that.
    The CSFP program, the Commodity Supplemental Food Program, 
an TEFAP, The Emergency Food Assistance Program, are effective 
programs that should be temporarily expanded.
    Please keep in mind that these Federal programs have 
absolutely no direct benefit to the Idaho Food Bank, so I have 
no self-serving interest in sharing that with you.
    Concurrently, Federal tax incentives such as included in 
the recently passed Pension Reform Bill need to be made 
permanent to provide incentives to donate that food and other 
items to the food banks and pantries across the country.
    The Food Stamp Program needs to expand eligibility. 
Children can qualify for a free or reduced price lunch in the 
schools if the family's living at 185 percent of poverty. But 
to get food stamps at a different eligibility criteria is in 
effect. All programs need to be inclusive. And the Federal 
Government needs to establish a comprehensive base for 
eligibility; one that assures that families' needs are met.
    Among those eligible for food stamps in Idaho, only around 
50 percent are receiving them. And according to the Idaho 
Department of Health and Welfare, 48 percent of those that 
receive them are children.
    One of the wonderfully unique things about the Food Stamp 
Program is that it's a natural setting for people to receive 
food. Not only is our government helping economically 
disadvantaged and creating employment within the grocery 
industry, but people who are receiving food are doing so in an 
appropriate setting.
    How many people in this room have had to stand in line at a 
food pantry or soup kitchen versus at a grocery store? One is 
natural.
    Let me reiterate some points. Many of them were edited out 
to stay within my time, but are within the written testimony.
    The 2007 Farm Bill reauthorization is the most critical 
piece of legislation facing this country this year. It impacts 
every single person. The Farm Bill is essential for farmers, 
small businesses and low income families, especially in rural 
communities.
    With the increasingly high costs of farming, farm subsidies 
from the government spell the difference between either success 
and total ruin, for many who commit their lives to feeding our 
country. Nearly 35 million Americans are threatened with 
hunger, including 13 million children. Expansion of the Federal 
nutrition program is effective appropriate response.
    The Farm Bill includes a range of nutrition programs. 
Participation rates vary from state to state. In Idaho, as I 
mentioned before, the Food Stamp Program is only reaching about 
50 percent of those that are qualified.
    The Commodity Supplemental Food Program has become the 
cornerstone to the nutritional service for our senior citizens, 
even though Idaho does not take part in this program. It should 
be expanded to all 50 states. We are an aging society, we must 
address that.
    The Emergency Food Assistance Program provides a way to 
direct some agricultural surpluses.
    Partnering with food banks across the country increases the 
supply to front line agencies and most importantly to people in 
need. This collaborative partnership should be written into law 
for efficiency purposes.
    Obesity is a serious problem, especially among our lower 
income children. It could be addressed in the Farm Bill with 
focus on nutrition, fruits, vegetables, and education. Its 
investment will impact everybody.
    Creating inclusive standards for the myriad of Federal 
nutrition programs will help eliminate confusion.
    The Food Stamp Program, as I said before, is the most 
natural method for people to receive food for themselves. The 
check-out line in the grocery store is the best way to do it.
    In conjunction with expansion of the Food Stamp Program, an 
outreach education program that simplifies enrollment is 
necessary to help eligible people access the services they 
need.
    Again, Senator, I thank you for the opportunity to offer 
this testimony on what I consider to be one piece of 
legislation impacting this entire this country.
    It has been an honor to come before you today, as it is 
each time we work together.
    The Farm Bill, 2007, if done correctly, will be the 
foundation for a strong society. Ronald Reagan made a comment 
saying, ``All great change in America begins at the dinner 
table.''
    When you and other people in this room go home tonight, to 
your families, realize that you're in the position that the 
President spoke of. Help bring all Americans to that table.
    Thank you very much for your time and for your attention.
    [The prepared statement of Mr. Simon can be found on page 
126 in the appendix.]
    Senator Crapo. Thank you very much, Mr. Simon.
    You know, the testimony of this panel has reminded me of 
the fact that we call this the Farm Bill, but it is much, much 
more than just a Farm Bill. And it has intentionally been 
expanded to be more than that.
    And I agree, Mr. Simon, it one--you said ``the most.'' I 
would certainly put it up there with one of the most important 
pieces of legislation that we address, whether you were talking 
about the environmental impacts or the commodity issues or 
energy issues or the rural development issues, the nutrition 
issues, the research issues and what have you.
    And I thought it might be interesting just to list off what 
the titles of the Farm Bill are. And I don't know that I have 
them all here. But there is obviously the commodities title, 
which is where it gets its name, probably from being the Farm 
Bill.
    And then as you know from the other testimony that we have 
had here, we have the conservation title. There is a trade 
title, which has enormous consequences in many different areas. 
The nutrition programs, including the Food Stamp Program and 
the others, and more, that Mr. Simon has talked about. The 
credit title, dealing with your finances and other aspects of 
how we are economically going to approach the whole business of 
food and fiber in our nation. There's the rural development 
title, which of course we're going to talk about a little bit 
on this panel. The research title. And the energy title. And 
the energy issues are becoming central, as they should have 
been, for a long time.
    In some of the meetings that have been held around the 
state, it has been suggested we probably ought to add another 
title, for transportation, which is becoming a bigger and 
bigger issue in all of these arenas.
    So this panel gets to help us broaden our focus a little 
bit beyond the traditional commodity and conservation titles to 
some of the other very critical pieces of the legislation.
    And, Dr. Bohach, if I could summarize the message I took 
from your testimony, it would be that we don't have an NIH for 
agriculture.
    Is that sort of a good summary?
    Mr. Bohach. Exactly. Exactly.
    Senator Crapo. And the proposal that you make is 
intriguing. Do you have a name for this institute yet?
    Mr. Bohach. It hasn't been named yet.
    Senator Crapo. I want to create an acronym here so that we 
can start talking about it. National Agricultural Institute. 
NAI. I don't know.
    Mr. Bohach. There have been names like that, proposed 
similar to that.
    Senator Crapo. The idea is that it would be a permanent 
institute, such as the NIH is, for health research, and a 
director.
    Tell me a little bit more about the proposed director. 
Would this be an appointment by the President for a term?
    Mr. Bohach. Nominated by the President, Mr. Chairman, and 
approved by Congress, for 6 years.
    Senator Crapo. For a 6-year term.
    Mr. Bohach. Yes. Which is similar to agencies, other 
institutes.
    Senator Crapo. Right. I think that it is a very good idea.
    And then you have suggested that the research funding, 
which I also found it interesting that if inflation adjusts 
agricultural research, it has not kept pace with inflation. It 
has actually gone down about 24 million. Was that over how many 
years?
    Mr. Bohach. Since 1997.
    Senator Crapo. Since 1997. And I think most of us are aware 
of the big push we've had for the last 15 years to double and 
then again double our research in the medical and health care 
arena. And we've seen the benefits that have started to come 
from that.
    And so I can certainly agree with you with the idea for 
doubling.
    You have heard probably all the budget discussion we have 
had with the other panels. That is not an easy--It's an easy 
objective to agree with. It is not going to be an easy one to 
achieve.
    I'm intrigued by it. And I'm going to try to work on it. 
You suggested that there were advantages and disadvantages of 
both the formula funding and competitive funding.
    Could you explain that a little bit, what you mean?
    Mr. Bohach. The advantages of competitive funding, I could 
list a few, the most obvious one I think is that it gets the 
highest level of scrutiny by peer review and refereed reviews.
    The problem with that is that it is not very reactive. And 
if I submit a proposal to NIH this time of year, we don't see 
the money for another year, basically. We don't even get 
notified if it is going to be funded for at least 6 months.
    And that really is the advantage, the formula fund, the 
main advantage, for example, using formula funds, tax dollars, 
we were able to identify potato sys-nematode very early this 
year, and get a heads up on it, try to limit it.
    Similar problems have been dealt with, using cash funds.
    Another example of responding quickly is in the area of 
bio-energy at the University of Idaho, where we have over the 
years used Hatch funds to develop very strong programs in bio-
diesel and ethanol production. And that's really going to help 
us deal with our current energy situation, much more rapidly, 
and respond, because we have the infrastructure here already.
    Senator Crapo. Well, I tend to agree with you. I was 
talking with someone a little while ago about the energy crunch 
that we face, and we were talking about the very difficult 
decisions that we have to face right now, and we don't really 
see an easy solution. In fact some have suggested that there is 
no solution to the energy situation that we face right now.
    And the gentleman that I was talking with said, you know, 
America has faced a lot of challenges throughout its history. 
And every time the American creativity and the American spirit 
and ingenuity that we have, has come up with a solution.
    And he said, we'll do the same thing with regard to energy. 
And it will come from research and from our investment into the 
development of new ideas and new science and new technology 
that will provide answers.
    And I think that kind of reasoning is the justification for 
the suggestion that you make, that we invest in this critical 
research. This isn't just research to try to help us be more 
effective and more productive in agriculture. That's a big part 
of it. But it is an investment in our competitiveness and our 
ability to maintain the quality of life we have in America and 
to expand it to all people and to preserve the American dream.
    So, I appreciate your commitment to that and your work on 
it.
    With regard to the proposal that you have put forward, I 
assume, when you say that you would like to have the new 
dollars, if we can get them into this project, go to 
competitive funding, is that because ultimately you would like 
to see the balance to be about half and half?
    Mr. Bohach. Right. The formula, if completely funded, would 
be approximately, this may not be exactly, but it would be 
approximately 48 percent competitive, and the remainder would 
be, probably a bit more, 52 percent, formula funds.
    Senator Crapo. I apologize. I have not yet seen your 
testimony. But have you attached this proposal? It came from 
what organization?
    Mr. Bohach. You mean----
    Senator Crapo. The proposal for--the NIH for agriculture. 
Didn't that come from a group that you're working----
    Mr. Bohach. Oh. Sorry. It came from the NASULGC croup. 
Land-grant----
    Senator Crapo. Have you attached that to your testimony?
    Mr. Bohach. It's in the folder, yes.
    Senator Crapo. I'll get to review it, then. All right. 
Thank you.
    Ms. Roach, I appreciated your reference to ``The World is 
Flat.'' I think there is a lot of wisdom in that book, and in 
the analysis that is being made by many, about how we are 
changing the way that we conduct business, conduct everything, 
you know, conduct life globally here on this earth.
    And one of the dynamics, and I guess this is going to 
relate to your testimony, as well, Mrs. Frei, so you can both 
jump in on these questions, any of you can on any of these 
questions, but one of the dynamics that I have noticed is that 
as our economy has been up and down, and fortunately now we are 
at a situation where I think we've got 12 or 16 consistent 
quarters of growth, it hasn't been the explosive, expansive 
growth that we saw in the late 1990's and the early part of 
this century, but it has been consistent.
    But as we have seen this regrowth from the dips the economy 
took, the overall numbers look really positive. I mean, you can 
look at jobs that have been created. You could look at revenue. 
And all sorts of other, different types of factors. 
Manufacturing and so forth.
    And it's been a little misleading, in my opinion. Because I 
believe that the urban areas are driving those numbers, and yet 
our urban areas could not on their own claim such wonderful 
news.
    Would you agree, and would you comment a little bit on 
that, both of you?
    Ms. Roach. I absolutely agree. In Idaho, certainly we have 
areas that are seeing growth. Valley County is groaning under 
the growth that they're seeing. But we have other counties in 
Idaho that are still shrinking, and losing jobs, and losing 
population.
    Perhaps even more significant is that many of our rural 
areas are seeing the aging of their populations even more 
rapidly than they're seeing the lack of growth, or the 
shrinking, because they are seeing some influx of retirees, but 
they are seeing predominantly an out-migration of youth.
    And as the world flattens, the technology allows people to 
come back to the rural communities, young families can come 
back to the rural communities, bring their jobs with them.
    My company is an example of what's called the loan eagle. I 
work all over the country, but I can be based in Grangeville, 
Idaho, because of technology. I still have some technology 
challenges there, which hopefully the telecommunications 
strategy that Christine talked about, can help resolve that.
    But we aren't seeing the same types of growth as you note. 
That's why I think that the national rural development 
partnership, the state councils, is vitally important, because 
what they do is bring to the table all of those different 
resources, all of the agencies, all of the nonprofits, all of 
the different entities that serve rural communities, and say 
here are some specific issues, specific problems, how can we 
work together, leverage our different resources and solve some 
of these issues creatively.
    And it's that creativity that's going to help resolve some 
of the rural--the thorniest rural problems.
    One of our challenges, as you know, with NRDP is there was 
funding authorized in the 2002 Farm Bill. That funding has 
never actually happened to the extent, and it wasn't meant all 
to come through USDA, it was meant to come from each of the 
Federal agencies as well as the states and the other partners 
who have a role in rural America.
    One of the challenges of a partnership like this is that 
not only are we trying to creatively collaborate and solve 
problems, but we are looking at where there are Federal 
regulations or Federal policies that are barriers to rural 
development, and so by definition, one or more of any of those 
partners sitting around the table is going to be on a hot seat 
when we are discussing a particular regulation or policy.
    Because USDA happens to be the agency with the most 
programs and the most money and the most policy and regulatory 
authority that affects rural America, they tend to be in the 
hot seat sometimes more than other agencies.
    So, this program sometimes tends to be a bit of a challenge 
for them internally because we're addressing a lot of things, 
like the one plan where we were involving Agriculture, EPA, and 
State Department of Agriculture as well as Federal.
    So, oftentimes it is a bit uncomfortable for some of our 
partners as we discuss how we can improve or facilitate or 
refine policies and regulations that are creating barriers, 
because one size doesn't fit all. And as you know, many of the 
policies tend to focus more on urban solutions as opposed to 
rural solutions.
    Senator Crapo. Thank you. Ms. Frei, do you want to comment?
    Ms. Frei. I just wanted to say that----
    Senator Crapo. Pull that mike a little closer.
    Ms. Frei. I believe that in the United States, the more 
spread out people are throughout the nation, the more stable 
and healthy we are.
    And I think one of the challenges, when legislators look at 
how they're going to spend money, the tendency is to think, the 
dollars for the greatest amount of people. I mean, that's just 
a natural tendency, let's help the most people.
    But the challenge, when you're looking at rural 
development, if you want to keep people healthy and communities 
healthy in those rural communities, that can't be the criteria. 
And we have to look at what's going to help those communities 
to survive, and it may be more costly to preserve those--to 
preserve certain services within the community than it would be 
in a larger community.
    However, I think overall it makes for a healthier nation. 
And I think, I was looking at the USDA rural development, 
thinking about it over the last 2 weeks, I cannot imagine our 
rural communities surviving without USDA rural development, and 
the services they provide. They're very traditional programs 
that have done a great amount of good, and I hope that they 
continue to be funded.
    Senator Crapo. Thank you. You know, as you were talking, I 
was thinking about, an example of what you were talking about, 
in terms of the benefit to our whole society, of making sure 
that we maintain the diversity, and the strength of our rural 
areas, is the Universal Service Fund, or the commitment we have 
on telecommunications, where we pay a little extra, we all pay 
a little extra in our telephone bills to make sure that we have 
telephone service in the rural communities. And it has made a 
tremendous difference to the whole nation, as well as to those 
communities. And I think that those kinds of things are very 
critical for us to understand.
    That kind of leads me into another aspect of this. As we 
talk about the rural communities and their needs, Ms. Frei, you 
mentioned at the end of your testimony, that our No. 1 issue is 
infrastructure in terms of the obstacles to economic 
development; No. 2 would be small business opportunity and 
financing.
    And I will just toss this out to all of you on the panel. I 
believe that. And one of the things that I have been committed 
to in many different contexts, is trying to build out the 
infrastructure in our rural communities.
    The question I have is what do we mean when we say 
infrastructure in our rural community? What do we need in terms 
of infrastructure in our rural communities?
    Ms. Frei. I would like to address this.
    Senator Crapo. Sure.
    Ms. Frei. There is an example, last night, yesterday 
afternoon we met with the Work Force Development, members of 
the Work Force Development Council for the State of Idaho in 
Region 2.
    And interestingly enough, the conversation was supposed to 
be about work force development, correct?
    Senator Crapo. Correct.
    Ms. Frei. We spent half the time talking about 
telecommunication issues.
    This is an example of telecommunication, fire stations, 
community centers, water, sewer, garbage, those kinds of 
services, are so necessary, and it's like, in North Central 
Idaho, many of our rural fire districts have been able to get 
assistance and funding, this is an example, for equipment, 
because after the 2000 fire season, monies were made available 
for them.
    But the problem is, is that they may have some of the 
equipment, some of the equipment now that they need, made real 
improvements in that area, vehicles that they need, but they 
don't have the fire station to put the equipment in.
    That's a major problem. Because in order to take care of 
that equipment, you need to have a controlled environment, and 
it has to be in an area in which it's going to be able to serve 
the community, the people in the community.
    And it is getting to be more and more of a problem because 
more and more people are moving out into the urban interfaced 
areas. And so the need those services are increasing.
    And energy is another issue that I see as an infrastructure 
issue. And also the last one would be transportation.
    Senator Crapo. So you think maybe a transportation title 
would be helpful in the Farm Bill?
    Ms. Frei. It couldn't hurt.
    Senator Crapo. Did you want to add anything, Ms. Roach?
    Ms. Roach. No. That's fine.
    Senator Crapo. I see some--Did you want to say something, 
Roger?
    Mr. Simon. Actually, I'd like to connect the last two 
questions.
    Senator Crapo. Yeah.
    Mr. Simon. The first one, you talked about growth going on 
for 14 quarters, what is it?
    Senator Crapo. Yes. 12.
    Mr. Simon. The growth we've seen, much of it has been in 
the service industries, which has meant that we've got people 
who are operating, often part-time, often without benefits, 
often with below living wages, whether urbanly located or 
rurally located.
    What the result of that is, in some ways, is that we also 
at the same time have had the largest increase in applications 
for Welfare going on in the country, food stamps, other things 
that somehow we have had all of this growth, but we have a huge 
increase in need that's occurring.
    And this ties back again to providing a base level for our 
population.
    When you talk about the wonder of living rural, you have a 
huge cost to just get from point A to point B, because in the 
city, it's 5 minutes away. Somewhere else, it's an hour away.
    When you don't have the same kinds of shopping 
opportunities, if you will, it's much more expensive.
    And so, again, that Farm Bill comes back into play here in 
terms of assuring standards, assuring the subsidies for the 
people, whether it be for the food stamps, assuring that people 
go into the grocery stores, and the grocery stores in a small 
town, and can afford the food that's available there.
    Senator Crapo. You know, to follow up on that for just a 
minute, in your testimony you indicated that the participation 
of among eligible people in the Food Stamp program was only 
about 50 percent.
    Mr. Simon. 48 percent.
    Senator Crapo. Yeah. In your view, why are about half of 
the eligible people not involved in the program?
    Mr. Simon. We do an inadequate job of making folks aware 
that the services are available. We also have a very strong 
stigma associated with participation in governmentally 
supported programs within our country, and especially within 
Idaho. A very much of a ``pull yourself up by your boot 
stamps'' kind of an area.
    Therefore, if it's government-related, it's not good.
    Although oftentimes the people saying that are also 
receiving supports, ironically. But that's not connected for 
them.
    I think that's a very serious problem. We know that across 
the country where there has been focused outreach and 
education, and even assistance in applications, done by food 
banks, for example, we've see increases of up to 70 percent and 
above for participation levels.
    That helps the entire economy. As we talk about, you know, 
even as I talk about those grocery stores in Kambiah, in 
Orofino, wherever they might be, you need to be able to have 
the person afford the food there. The food stamp allows for 
that to occur at times, it allows that person to access that 
food in a natural type of a setting. Just as we may have a 
pantry located down the road, the owner of the grocery store 
needs to be able to make ends meet, too, and what that does is 
the food stamp provides an economic boost to that community.
    Senator Crapo. And if we were to expand the eligibility for 
food stamp, wouldn't those who were newly eligible face those 
same kind of obstacles that you've just discussed?
    Mr. Simon. That's why in my testimony I suggested that an 
outreach education component be a critical part of this 
program. And I am not talking about major dollars. I mean, it 
doesn't need to be that expensive. But that we need to somehow 
move that outside of it being controlled automatically by State 
Departments within each of our states, but that we develop on a 
national level, the materials that can be distribute throughout 
our country, to assist people in accessing that material, and 
we removed the stigma that's associated with receiving food 
stamps. And we've gone a long ways there with the Quest cards, 
with other types of cards that are much more natural for folks.
    Ms. Roach. Senator Crapo, the comments that were just made, 
I think there's an interesting connection between what 
Christine just said about the meeting yesterday, the folks from 
Work Force, and the reason that that meeting ended up spending 
a lot of time talking about telecommunication infrastructure 
has to do with access to increasing levels of skills. And it's 
more--it's difficult for people in rural areas to access the 
training that they need.
    We have people who are unemployed, we have people on food 
stamps, people who are making low wages, and yet I talk to 
business owners who can't find the workers who have the skills 
that they need. They have the jobs available, but they don't 
have the work force.
    So it is all interconnected, and it has to do with 
education, it has to do with retraining, it has to do with 
training beyond high school, vocational education, all of those 
things are wrapped into it.
    But telecommunications is a critical piece. Because if we 
can increase our capacity to deliver training and to deliver 
educational services to people who need it, then we have more 
opportunity for people to get jobs that are going to be 
increasingly needed in a global economy.
    Senator Crapo. Thank you.
    Ms. Frei. I would just like to comment on that, too.
    Senator Crapo. Sure.
    Ms. Frei. Also we need to keep our mind open when you are 
working with very rural communities. It may not be the 
traditional telecommunication infrastructure.
    And some of the barriers that I've seen within the last few 
years, this is what we do in urban America, and this is going 
to translate out in rural America, and it doesn't.
    We need to look at different kinds of systems and not rely 
on the traditional service providers that have been providing 
it.
    Senator Crapo. Well, and that's why the partnerships and 
groups that particularly the two of you are members of, are so 
helpful in helping us fine tune it and make it work properly.
    Yes?
    Mr. Bohach. I also just wanted to add, that I think that 
would be an excellent place for the university extension and 
outreach, especially with our experts on nutrition and rural 
sociology.
    Senator Crapo. That just shows the collaborative approach 
that Ms. Roach talked about and that we all have been involved 
in.
    Ms. Roach. Extension is represented on the Idaho Rural 
Partnership Board, as a integral partner.
    Senator Crapo. Well, I want to thank everyone on this 
panel. Again we are running out of time. We always run out of 
time on these hearings, which is one of the reasons why we keep 
the record open for 5 days so that folks can continue to send 
us information, and really, like I said at the outset, the 
record, in terms of giving us input on the Farm Bill, is just 
open. Get ahold of us whenever you want to, to let us know 
about your thoughts and your ideas and suggestions.
    Again, I want to thank all of you on this panel.
    And I'll just make a few concluding remarks here, and then 
we will wrap up the hearing.
    I believe that the testimony that we've received today has 
been outstanding. And for those of you who haven't had a chance 
yet to read all of the testimony, the depth was much greater in 
the written testimony than we had an opportunity to do here in 
the actual hearing. Which is always the case.
    But it's been--it provides a tremendous bank of resource 
for us to utilize at the Committee as we develop this 
legislation.
    This is one of the most important pieces of legislation 
that Congress deals with on a regular basis, and as I said 
before, I believe that the times that we are living in, the 
situations we are facing, literally in terms of international 
economic and international security issues as well as our 
national issues that go right down to the rural level, and to 
the individuals at the dinner table, are becoming much, much 
more intense an interrelated, and as a result of that, the 
consequences of us getting it right in this Farm Bill are 
increased dramatically.
    Because it really is much more than just a Farm Bill. It's 
a bill that helps to facilitate that interrelationship between 
so many of these issues that involve so many of our people here 
and across the globe. So, again, I want to thank everybody for 
your testimony, and for the time that you have given to attend 
here today and to prepare for us.
    And with that, we will close this hearing. Thank you very 
much.
    [Whereupon, 12:05 p.m., the hearing was adjourned.]
      
=======================================================================


                            A P P E N D I X

                            August 11, 2006



      
=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                            August 11, 2006



      
=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


                                 <all>

</pre></body></html>
